FILED: August 27, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-6892
(1:18-cv-01071-AJT-TCB)

WILLIAM DA VID CANNON
Petitioner - Appellant
v.
*>

DIRECTOR, VIRGINIA DEPT. OF CORRECTIONS
Respondent - Appellee

JUDGMENT
In accordance with the decision of this court, a certificate of appealability is
denied and the appeal is dismissed.
This judgment shall take effect upon issuance of this court's mandate in
accordance with Fed. R. App. P. 41.
/s/ PATRICIA S. CONNOR. CLERK

ft

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-6892

WILLIAM DAVID CANNON,
Petitioner - Appellant,
v.
DIRECTOR, VIRGINIA DEPT. OF CORRECTIONS,
Respondent - Appellee.

Appeal from the United States District Court for the Eastern District of Virginia, at
Alexandria. Anthony John Trenga, District Judge. (l:18-cv-01071-AJT-TCB)

Submitted: August 25, 2020

Decided: August 27, 2020

Before KING and AGEE, Circuit Judges, and SHEDD, Senior Circuit Judge.
Dismissed by unpublished per curiam opinion.

William David Cannon, Appellant Pro Se. Katherine Quinlan Adelfio, OFFICE OF THE
ATTORNEY GENERAL OF VIRGINIA, Richmond, Virginia, for Appellee.
Unpublished opinions are not binding precedent in this circuit.

PER CURIAM:
William David Cannon seeks to appeal the district court’s order denying relief on
his 28 U.S.C. § 2254 petition. The order is not appealable unless a circuit justice or judge
issues a certificate of appealability. See 28 U.S.C. § 2253(c)(1)(A). A certificate of

l

appealability will not issue absent “a substantial showing of the denial of a constitutional
right.” 28 U.S.C. § 2253(c)(2). When the district court denies relief on the merits, a
prisoner satisfies this standard by demonstrating that reasonable jurists could find the

\o

district court’s assessment of the constitutional claims debatable or wrong. See Buck v.

K*
jSi

Davis, 137 S. Ct. 759,

773-74 (2Q17)^When the district court denies relief on procedural

grounds, the prisoner must demonstrate both'that the dispositive procedural ruling is ]
f debatable and that the petition states a debatable claim of the denial of a constitutional /
(right] Gonzalez v. Thaler, 565 U.S. 134, 140-41 (2012) (citing Slack v. McDaniel, 529
U.S. 473,

484 (2000)^7

We have independently reviewed the record and conclude that Cannon has not made
the requisite showing.

Accordingly, we deny Cannon’s motion for a certificate of

appealability and his motion for transcripts, deny leave-to-proceed in-forma pauperis, and
dismiss the appeal. We dispense with oral argument because the facts and legal contentions j
are adequately presented in the materials before this court and argument would not aid the
decisional process.
DISMISSED

2

r

*

^apenoi^
lIS bis-k Courk.

r

f

>

Merrifirandfjm Opinion

!

3y />ye^

Case l:18-cv-01071-AJT-TCB Document 19

iled 05/28/19 Page 1 of 2 PagelD# 990

IN THE UNITED STATES DISTRICT COURT FOR THE
EASTERN DISTRICT OF VIRGINIA
Alexandria Division
William David Cannon,
Petitioner,
v.
Director, Virginia Dep’t of Corrections,
Respondent.

)
)
)
)
)
)
)

l:18cvl071 (AJT/TCB)

ORDER
For the reasons stated in the accompanying Memorandum Opinion, it is hereby
ORDERED that respondent’s Motion to Dismiss this petition for a writ of habeas corpus
pursuant to 28 U.S.C. § 2254 [Dkt. No. 9] be and is GRANTED, and this petition is
DISMISSED WITH PREJUDICE.

This is a Final Order for purposes of appeal. To appeal, petitioner must file a written
notice of appeal with the Clerk’s Office within thirty (30) days of the date of this Order. A
written notice of appeal is a short statement stating a desire to appeal this Order and noting the
date of the Order petitioner wants to appeal. Petitioner need not explain the grounds for appeal
until so directed by the court. Petitioner must also request a certificate of appealability from a
circuit justice or judge. See 28 U.S.C. § 2253 and Fed. R. App. P. 22(b). For reasons stated in
the accompanying Memorandum Opinion, this Court expressly declines to issue such a
certificate.

The Clerk is directed to enter final judgment in favor of respondent Harold W. Clarke

Ay*

Case l:18-cv-01071-AJT-TCB Document 19 Filed 05/28/19 Page 2 of 2 PagelD# 991

pursuant to Fed. R. Civ. P. 58, to send a copy of the Memorandum Opinion and this Order to
petitioner pro se and to counsel of record for respondent, and to close this civil action.

Entered this A &__ day of /Yf

Alexandria, Virginia

7

2019.

Anthony J. Tren
United States Di

Case l:18-cv-01071-AJT-TCB Document 18 Filed 05/28/19 Page 1 of 34 PagelD# 953

6tIN THE UNITED STATES DISTRICT COURT FOR THE
/
EASTERN DISTRICT OF VIRGINIA
.a'‘
Alexandria Division

/
/'

William David Cannon,
Petitioner,
v.
Director, Virginia Dep’t of Corrections,
Respondent.

)
)
)
)
)
)
)

l:18cvl071 (AJT/TCB)

MEMORANDUM OPINION
William David Cannon, a Virginia inmate proceeding pro se, has filed a petition for a
writ of habeas corpus pursuant to 28 U.S.C. § 2254, challenging his conviction of numerous
offenses following a jury trial in Circuit Court of the City of Virginia Beach. The matter comes
before the Court on a Motion to Dismiss the petition filed by the respondent, to which petitioner
has filed his opposition. For the reasons which follow, the Motion to Dismiss will be granted,
and the petition will be dismissed, with prejudice.
I. Background
Following a jury trial in April, 2014, Cannon was found guilty of robbery with the use of
a gun or simulated gun, abduction, armed statutory burglary, rape, and four counts of use of a
firearm in the commission of a felony. The convictions of abduction, burglary and rape were
based on Cannon’s participation in those offenses as a principal in the second degree. On
September 23,2014, the trial court sentenced Cannon in accordance with the jury’s
recommendation to terms of incarceration of ten years for the robbery, twenty years for the armed
statutory burglary, five years each for the rape and the abduction, and an aggregate of eighteen
years mandatory minimum for the four unlawful use of a firearm convictions. The court imposed

6fl

u&

Case l:18-cv-01071-AJT-TCB Document 18 Filed 05/28/19 Page 2 of 34 PagelD# 954

the entire fifty-eight year term of imprisonment as an active sentence. Case Nos. CR12-189,
CR12-1640, Crl4-83; Resp. Ex. 1-2.
Cannon took a direct appeal of his convictions of abduction, burglary and rape, as well as
the three corresponding firearms convictions; he did not challenge the robbery conviction or its
related firearms charge. The Court of Appeals of Virginia denied Cannon’s appeal by a per
curiam order entered May 4,2015 and again on December 3,2015 following review by a threejudge panel. The appellate court described the facts underlying Cannon’s convictions as follow:
[T]he evidence proved that on September 25,2011, the victim
returned to her apartment near midnight. As she parked her car,
she noticed two men walking on the sidewalk. As she walked to ,
her apartment, ope of the men was in front of her and the other was y
behind her. When she reached the door, she heard a man tell her to 1,7
stop. She turned and saw one of the men pointing a gun at her..
\
She identified the gunman as Rolando Goodman. GflfldifflM.
r
instructed fhe victim to go inside. [Cannon], the other man, stood
by the door.
Goodman pulled the victim to a back bedroom and attempted to tie
her hands. [Cannon] initially remained at the front door but then
came into the bedroom and asked Goodman where the victim’s
cash was located. The victim testified [Cannon] brought Goodman
a roll of tape which Goodman used to bind her hands. Goodman
gagged the victim by putting a sock in her mouth, searched her
pockets, pulled down her pants, .and penetrated her vagina with his
penis. The victim could hear appellant opening drawers and
closets in other rooms. During die sexual assault, [Cannon]
entered the bedroom, laughed, and stated, “hurry up, I’m about to
go get the car.”
The victim later discovered that jewelry and other items were taken
from her residence. The police located some of the victim’s
property from a residence where [Cannon] had been living. In a
statement to the police following his arrest, [Cannon] admitted he
was with Goodman during the home invasion. Both [Cannon] and
Goodman had pawned some of the victim’s property.
Cannon v. Commonwealth. R. No. 1898-14-1 (Va. Ct. App. May 4, 2015); Resp. Ex. 5. The
2

—>*

Case l:18-cv-01071-AJT-TCB Document 18 Filed 05/28/19 Page 3 of 34 PagelD# 955

Supreme Court of Virginia refused Cannon’s petition for further review on August 3,2016.
Cannon v. Commonwealth. R. No. 151941 (Va. Aug. 3, 2016); Resp. Ex. 7.
On or about October 28,2016, Cannon filed a petition for a state writ of habeas corpus in
the trial court, raising the following claims:
I.

The trial court abused its discretion by denying his
motion to strike at the close of the Commonwealth’s
evidence.

II.

The evidence was insufficient to sustain the
verdicts.

III.

He received ineffective assistance of trial counsel
because counsel:
a. failed to object to the Commonwealth’s
statements;
b. failed to object to the standard of review at the
motion to strike;
c. failed to make an appropriate argument to the
jury;
d. failed to submit a “correction of facts” on appeal;
e. failed to establish that the Commonwealth had
misrepresented facts at the Motion to Set Aside the
Verdict; and
f. committed sufficient cumulative error to warrant
relief.

IV.

He received ineffective assistance of appellate trial
counsel because counsel:
a. failed to state that the facts were in dispute;
b. failed to object to the misrepresentation of facts
in the Commonwealth’s Brief in Opposition;

3

"Jr

Case l:18-cv-01071-AJT-TCB Document 18 Filed 05/28/19 Page 4 of 34 PagelD# 956

c. failed to assert that petitioner had the right to
have the evidence viewed in his favor on appeal;
and
d. failed to argue that the concert-of-action jury
instruction was without factual foundation.
V. He was the victim of prosecutorial misconduct.
Resp. Ex. 8.
By an Order entered April 17,2017, the Virginia Beach Circuit Court dismissed
Cannon’s habeas corpus petition. Specifically, it determined that claims I and V were barred
from consideration by the rule announced in Slavton v. Parrigan. 215 Va. 27,29,205 S.E.2d 680,
682 (1974) that a non-jurisdictional issue that could have been but was not raised at trial and on
direct appeal is not cognizable in a petition for a writ of habeas corpus. Resp. Ex. 10. The court
further held that claim II was barred by the rule articulated in Henrv v. Warden, 25 Va. 246,576
S.E.2d 495,496 (2003) that “a non-jurisdictional issue raised and decided either in the trial
[court] or on direct appeal from the criminal conviction will not be considered in a habeas corpus
proceeding.” The court rejected claims III and IV on the merits. Id The Supreme Court of
Virginia subsequently refused Cannon’s petition for further review of that decision. Cannon v.
Dir.. Dep’t of Corr.. R. No. 170821 (Va. Mar. 5,2018); Resp. Ex. 12.
Cannon filed a petition for a writ of certiorari in the United States Supreme Court on May
25.2018. Resp. Ex. 13. Respondent filed no opposition, and the petition was denied on October
15.2018. Resp. Ex. 14.
Meanwhile, Cannon turned to the federal forum and timely filed this petition for a writ of
habeas corpus pursuant to § 2254 on August 27,2018, raising the following claims:
His rights under the 6th and 14th amendments were
4

Case l:18-cv-01071-AJT-TCB Document 18 Filed 05/28/19 Page 5 of 34 PagelD# 957

violated because the evidence was insufficient as a
matter of law to sustain the verdicts.
2.

His rights under the 5th, 6th and 14th amendments
were violated when the prosecution misrepresented
evidence and presented false statements to the jury.
His 6th and 14th amendment rights were violated
when he received ineffective assistance of counsel
on direct appeal, because counsel:
a. Did not state that “The Facts are in Dispute” in
the appellate brief.
b. Did not object to misrepresentations of material
facts in the Commonwealth’s brief.
Failed to argue that there was no factual basis to
support the concert-of-actionjury instruction.

6)

His 6th and 14th amendment rights were violated
when he received ineffective assistance of trial
counsel, where counsel:
a. Did not object when the prosecutor told the jury
that Cannon had “come to the Mansards Apartments
to rob people.”
b. Did not assert the actual facts and circumstances
of the case to the court or the jury at the Motion to
Strike or during the defense’s case in chief.
c. Did not submit an Objection and a Correction of
Facts to be made part of the record for use on direct
appeal.
d. Made no attempt during the hearing on the
Motion to Set Aside the Verdict to show that the
Commonwealth’s evidence was established through
multiple egregious misrepresentations of material
fact.
£e) Committed sufficient error that its cumulative
effect violated his right to a fair trial.
5

Case l:18-cv-01071-AJT-TCB Document 18 Filed 05/28/19 Page 6 of 34 PagelD# 958

Did not object to the concert-of-action jury
instruction on the ground that it was
unconstitutional and did not argue that it should not
be given.
m

?

,v»

His rights under the 5th, 6th and 14th amendments
were violated when two jury instructions stated
mandatory presumptions that shifted the burden of
proof to the defense to negate them.

Pet. at 2,20, 34,45, 61,64,64 (i) - (iv), 109.
On November 1,2018, respondent filed a Rule 5 Response and a Motion to Dismiss the
petition with a supporting brief and exhibits, and provided Cannon with the notice required by
Rosehoro v. Garrison. 528 F.2d 309 (4th Cir. 1975) and Local Rule 7K. [Dkt. No. 9-12] Cannon
subsequently filed an opposition. [Dkt. No. 16] Accordingly, this matter is ripe for disposition.
II. Exhaustion and Procedural Default
Before bringing a federal habeas petition, a state prisoner must first exhaust his claims in
the appropriate state court. 28 U.S.C. § 2254(b); Granberrv v Greer. 481 U.S. 129 (1987); Rose
v. Lundv. 455 U.S. 509 (1982). To comply with the exhaustion requirement, a petitioner “must
give the state courts one full opportunity to resolve any constitutional issues by invoking one
complete round of the State’s established appellate review process.” O’Sullivan v. Boerckel, 526
U.S. 838, 845 (1999); Duncan v. Henry. 513 U.S. 364 (1995). Thus, in Virginia, a § 2254
petitioner must first have presented the same factual and legal claims to the Supreme Court of
Virginia either by way of a direct appeal, a state habeas corpus petition, or an appeal from a
circuit court’s denial of a state habeas petition. Picard v. Connor. 404 U.S. 270, 275-78 (1971);
Matthews v. Evatt. 105 F.3d 907, 910-11 (4th Cir. 1997).
In addition, “[a] claim that has not been presented to the highest state court nevertheless

6

Case l:18-cv-01071-AJT-TCB Document 18 Filed 05/28/19 Page 7 of 34 PagelD# 959

may be treated as exhausted if it is clear that the claim would be procedurally barred under
law if the petitioner attempted to present it to the state court.^Qray v. Netherland, 518 U.S^152^^'
161 (1996). Importantly, “the procedural bar that gives rise to exhaustion provides an
independent and adequate state-law ground for the conviction and sentence, and thus prevents
federal haheas review of the defaulted claim.” Id. at 162. Therefore, such a claim is deemed to
be simultaneously exhausted and defaulted for purposes of federal habeas review. See Bassette
v. Thompson. 915 F.2d 932 (4th Cir. 1990).
Where a state court “clearly and expressly bases its dismissal of a habeas petitioner’s
claim on a state procedural rule, and that procedural rule provides an independent and adequate
ground for the dismissal, the habeas petitioner has procedurally defaulted his federal claim.”
Breard v. Pruett. 135 F.3d 615, 619 (4th Cir. 1998). Thus, “[a] habeas petitioner is barred from
seeking federal review of a claim that was presented to a state court and ‘clearly and expressly’
denied on the independent, adequate state ground of procedural default.” Bennett v. Angelone,
92 E.3 d 1336,1343 (4th Cir. 1996). A state procedural rule is “adequate if it is firmly
established and regularly or consistently applied by the state courts, and “independent” if it does
not depend upon a federal constitutional ruling. Yeatts v. Angelone, 166 F.3d 255,263-64 (4th
Cir. 1998). Moreover, a claim is defaulted for federal purposes whenever a state court makes a
finding of procedural default, regardless of whether it discusses the merits of the claim in the
alternative. Alderman v. Zant. 22 F.3d 1541,1549 (11th Cir. 1994) (holding that “where a state
court has ruled in the alternative, addressing both the independent state procedural ground and
the merits if the federal claim, the federal court should apply the state procedural bar and decline
to reach the merits of the claim.”). Pursuant to these principles, claim 2, portions of claims 4(e)

7

Case l:18-cv-01071-AJT-TCB Document 18 Filed 05/28/19 Page 8 of 34 PagelD# 960

and 4(f), and claim 5 of this petition are procedurally barred from federal review.
Claim 2: When Cannon raised his present claim 2 that he was the victim of prosecutorial
misconduct in his state habeas corpus proceeding, where it was denominated claim V, the circuit
court dismissed it expressly on the authority of Slayton, 205 S.E.2d at 682, because Cannon
could have but did not raise the claim on direct appeal. Resp. Ex. 10, Final Order at 5. Because
the Supreme Court of Virginia refused further review of the circuit court’s decision without
explanation, the same reasoning is imputed to it. Sex: Ylst v. Nunnemaker, 501 U.S. 797, 803
(1991). The Fourth Circuit has held consistently that the procedural default rule set forth in
Slavton constitutes an adequate and independent state law ground for decision. See Reid v. True,
349 F.3d 788, 805 (4th Cir. 2003); Mu’min v. Pruett. 125 F.3d 192,196-97 (4th Cir. 1997).
Therefore, the Virginia courts’ express finding that Slavton barred review of Claim 2 of this
petition also precludes its federal review, Bennett. 92 F.3d at 1343, and the fact that the claim
also was determined to be without merit does not alter that conclusion. Alderman, 22 F.3d at
1549.
Federal courts may not review a barred claim absent a showing of cause and prejudice or
fundamental miscarriage ofjustice,^rtich'as'actual innocence. Hi is v. Reed. 489 U.S. 255,
260 (1989). The existence of cause ordinarily turns upon a showing of (1) a denial of effective
assistance of counsel, (2) a factor external to the defense which impeded compliance with the
state procedural rule, or (3) the novelty of the claim. See Coleman v Thompson, 501 U.S. 722,
753-54 (1991); Clozzav. Murray. 913 F.2d 1092, 1104 (4th Cir. 1990); Clanton, 845 F.2d at
1241-42. Importantly, a court need not consider the issue of prejudice in the absence of cause.
See Komahrens v. Evatt. 66 F.3d 1350, 1359 (4th Cir. 1995).
8

Case l:18-cv-01071-AJT-TCB Document 18 Filed 05/28/19 Page 9 of 34 PagelD# 961

In his response to the Motion to Dismiss, Cannon argues that Claim 2 should be reviewed
on the merits because the Virginia circuit court cited Elliott v. Warden, 274 Va. 598,601 (2007)
in finding the claim to be defaulted, and because the claim is expressed as a matter of
constitutional dimension. [Dkt. No. 16 at 3-4] It is true that Elliott was among the authorities
the Virginia court cited in determining that Cannon’s claim of prosecutorial misconduct was
defaulted, Resp. Ex. 10, Final Order at 5-6, but it did so expressly because Elliott is in accord
with the Slavton rule upon which the court principally based its holding. Id. at 5. Cannon’s
argument that he expresses his claim here as a violation of his federal constitutional rights is
irrelevant; the claim also was raised in the state courts as a violation of constitutional dimension,
Resp. Ex. 8 at 3, yet it appropriately was found to be defaulted by the Slavton rule^Cannon has
made no showing that he is actually innocent of the crimes of which he stands convicted, so the
fundamental miscarriage ofjustice exception to the cause does not apply^See Richmond v. Polk,
375 F.3d 309,323 (4th Cir. 2004) (exception applies only “where a constitutional violation has
probably resulted in the conviction of one who is ‘actually innocent’ of the substantive
offense.”). Accordingly! Claim 2 of this petition is procedurally barred p~om consideration on the
merits.
Claims 3(a)-(c) an<|4(a)-(d):jfhese claims are largely exhausted and will be discussed in
detail in the “Analysis” section of this Memorandum Opinion, infra\^To the extent that Cannon
hasjaugmented his present versionsjof these claims to attempt to add new factual support to
arguments he made in the Virginia courts, however, those portions are simultaneously exhausted
and defaulted[^because if Cannon were to attempt to return to the state forum to exhaust them his
petition would be subject to dismissal as both untimely and successive, and thus would be

y

Wt
Case l:18-cv-01071-AJT-TCB Document 18 Filed 05/28/19 Page 10 of 34 PagelD# 962

procedurally defaulted under Va. Code §§ 8.01-654(A)(2) and (B)(2). Under such circumstances^
a claim is procedurally barred from federal review. Gray, 518 U.S. at 161. Cannon argues that
the unexhausted portions of these claims should be reviewed pursuant to Martinez v. Ryan, 566
U.S. 1 (2012), butlhefaiisto showjhow the additional details he adds to the claims make them
anv morejneritoriousthan they were when the state habeas court rejected them. Therefor^f^e
present additions to Cannon’s state habeas claims will not be considered here.^ee Hall v. Zook,
No. I:17cv602(LMB/JFA),2017 WL6614622(E.D.Va.Dec.27,2017)(notingthatCullenv,
Pinholster. 563 U.S. 170 (2011) ‘“plainly bans’ an ‘attempt to obtain review of the merits of
claims presented in state court in light of facts that were not presented in state court [and]
Martinez does not alter that conclusion.’”) (quoting Moore v. Mitchell, 708 F.3d 760,785 (6th
tCulleh not
as it
prt*r 4* AmrUtt s
Cir. 2013).
i MerW Speabahh allays *lo*frr*cfaa +f
Claims 4(e) and 4ffl: A portion of Claim 4(e) and Claim 4(f) are simultaneously
exhausted and defaulted. Because Cannon attempts to overcome the default of these claims by
relying on the Martinez exception, they will be addressed infra in the portion of this opinion
concei

lannon’s claims of ineffective assistance of counsel.

-*8

N ’(claim 5: Jn Claim 5. which was not raised in Cannon’s state habeas petition, heargugs,
that his constitutional rights were violated when two jury instructions stated mandatory,
presumptionsjthat shifted the burden of proof to the defense to negatethenjy This.filaim is
Qimultanpr>P<;lv exhausted and defaulted, because Cannon has not presented it to the Supreme,
Court of Virginia./ Further, were he to attempt to do so now, his petition would be both untimely
and successive, and thus would be procedurally defaulted under Va. Code §§ 8.01-654(A)(2) and
(B)(2). Under such circumstances, a claim is procedurally barred from federal review. Gray, 518

Case l:18-cv-01071-AJT-TCB Document 18 Filed 05/28/19 Page 11 of 34 PagelD# 963

U.S. at 161. Respondent notes that Cannon argued the substance of this claim in his
unsuccessful petition for certiorari to the United States Supreme Court, but argues correctly that
the claim was not thereby exhausted for purposes of federal habeas review. Resp. Brief at 22;
see Picard. 404 U.S. at 275-78 (claim is exhausted for § 2254 review only when it was first fairly
presented to the highest court of the state where the conviction was entered).
In his Response to the Motion to Dismiss, Cannon argues that Claim 5 should be
considered exhausted because he argues il^Claim 4(|j^hat trial counsel was ineffective for failing 1
to object to the concert-of-action jury instruction as unconstitutional, and in Claim 5 he
challenges the constitutionality of the jury instruction directly. [Dkt. No. 16 at 7] The problem
with Cannon’s position is that, as will be discussed infra. Claim 4(f) was never presented to the
7
Supreme Court of Virginia.’and since it thus remains unexhausted it cannot have served to
exhaust Claim 5. Accordingly. Claim 5 is defaulted from federal consideration..
III. Merits Standard of Review
When a state court has addressed the merits of a claim raised in a federal habeas petition,
a federal court may not grant the petition based on the claim unless the state court’s adjudication
is contrary to, or an unreasonable application of, clearly established federal law, or based on an
unreasonable determination of the facts. 28 U.S.C. § 2254(d). Whether a state court decision is
“contrary to” or “an unreasonable application of’ federal law requires an independent review of
each standard. See Williams v. Tavlor. 529 U.S. 362,412-13 (2000). A state court
determination runs afoul of the “contrary to” standard if it “arrives at a conclusion opposite to
that reached by [the United States Supreme] Court on a question of law or if the state court
decides a case differently than [the United States Supreme] Court has on a set of materially

11

?

Case l:18-cv-01071-AJT-TCB Document 18 Filed 05/28/19 Page 12 of 34 Page! D# 964

indistinguishable facts.” Id at 413. Under the “unreasonable application” clause, “a federal
habeas court may not issue the writ simply because that court concludes in its independent
judgment that the state-court decision applied [the law] incorrectly.” Woodford v. Visciotti, 537
U.S. 19,24-25 (2002). Thus, “[t]he question under the AEDPA is not whether a federal court
believes the state court’s determination was incorrect, but whether that determination was
unreasonable - a

substantially higher threshold.’/Schrirov. Mandrigan^550 U.S. 465 ,673

(2007).y“As a condition for obtaining habeas corpus from a federal court, a state prisoner must
show that the state court’s ruling on the claim being presented in federal court was so lacking in
justification that there was an error well understood and comprehended in existing law beyond
any possibility for fairminded disagreement.” Harringtonv^Rjchter, 562 U.S. 86, 103 (2011).
“If this standard is difficult to meet - and it is - ‘that is because it was meant to be/’ Burtv.
Titlow. 571 U.S. 12,20 (2013) (quoting Richter. 562 U.S. at 102)^)
WHen~afederal habeas petitioner challenges the reasonableness of the factual basis for a. )
state conviction, the AEDPA “requires federal habeas courts to presume the correctness of state
courts’ factual findings unless applicants rebut this presumption with ‘clear and convincing

\

evidence,’” Schriro. 550 U.S. at 473-74. Under the AEDPA standard, “[t]he focus of federal
court review is now on the state court decision that previously addressed the claims rather than
the petitioner’s free-standing claims themselves.” McLee v. Angelone, 967 F.Supp. 152,156
(E.D. Va. 1997\ appeal dismissed. 139 F.3d 891 (4th Cir. 1998) (table).
IV. Analysis
Claim 1: In his first federal claim (which was Claim II in Cannon’s state habeas
petition), Cannon argues that the evidence was insufficient as a matter of law to convict him as a

12

Case l:18-cv-01071-AJT-TCB Document 18 Filed 05/28/19 Page 13 of 34 PagelD# 965

principal in the second degree to abduction, burglary and rape.' When Cannon made this same
argument on direct appeal, the Court of Appeals of Virginia rejected his position on the
following holding:
“Aprincipal in the second degree, or an aider or
abettor as he is sometimes termed, is one who is
present, actually or constructively, assisting the
perpetrator in the commission of the crime. In order
to make a person a principal in the second degree,
actual participation in the commission of the crime^
is not necessary. The test is whether or not he was
encouraging, inciting, or in some manner offering .
aid in the commission of the crime. If he was
present lending countenance, or otherwise aiding
while another did the act, he is an aider and abettor
or principal in the second degree.”
Thomas v. Commonwealth. 279 Va. 131,156-57,688 S.E.2d 220,
234 (2010) (quoting Muhammad v. Commonwealth. 269 Va. 451,
619 S.E.2d 16, 33 (2005)).
We have previously held that
“proof that a person is present at the commission of
a crime without disapproving or opposing it, is /Q\
evidence from which, in connection with other
circumstances,fit is competent for the jury to infer/ ^kW
ftfiaf he assented thereto,'lent to it his countenance /cV^
and approval, and was thereby aiding and abetting
the same.”-4

’Although this claim was found to be procedurally defaulted in Cannon’s state habeas corpus
proceeding by the holding of Henrv v. Warden. 576 S.E.2d at 496, the respondent acknowledges
correctly that that determination created no impediment to federal consideration of the claim. See
Crews v. Johnson. 702 F.Supp.2d 618,624 n. 6 (W.D.Va. 2010) (“In the Fourth Circuit, however,
the procedural bar of Henrv v. Warden is not an adequate and independent state ground that
precludes federal habeas review of petitioner’s claims.”), aff d sub nom. Crews v. Clarke. 457 F.
App’x 277 (4th Cir. 2011); Bell v. True. 413 F.Supp.2d 657 (W.D.Va 2006) (“However, where the
petitioner’s claim concerns a federal constitutional issue, the rule set forth in Henrv does not prevent
federal habeas review of the claim.”).

Case l:18-cv-01071-AJT-TCB Document 18 Filed 05/28/19 Page 14 of 34 PagelD# 966

Pueliese v. Commonwealth. 16 Va. App. 82,93-94,428 S.E.2d 16,
25 (1993) (quoting Foster v. Commonwealth, 179 Va. 96,99-100,
18 S.E.2d 314,316 (1942)).

7-

In this case, [Cannon] concedes he fully participated in the robbery
but asserts he did not join in or aid and abet thaburglary, abduction _'
.
or rape. However, the evidence demonstratecHCannon] stood at 4^^
A .-f*
^
< the doorway as Goodman forced the victim inside/&nd pulled her to w
/ a hack bedroom.TBv standing guard at the dooiUlfcanngnl aided —" y X &
,
^ Goodman in accomplishing the burglary and abductionj[Cannoi^^
* *
also brought Goodman the tape he used to bind the victim prior to
>
sexually assaulting her. [Cannon] entered the room during the rape, u
f
suggested Goodman “hurry,’’and indicated he was preparing to
t
Jsr\
lpgye: the scene. [Cannon’s] actions again assisted Goodman in the
m^issiono^the offense. [Cannon] searched the victim’s
5^
while Goodman raped the victim, provided Goodman
resn
'sd~ tdr
fatnWfiassistance, and helped Goodman flee the scene. The evidence fully
eS
supports the jury’s conclusion that [Cannon] aided and abetted and
~
was guilty of the offenses as a principal in the second degree. The
i
Ur
Commonwealth’s evidence was competent, was not inherently
incredible, and was sufficient to prove beyond a reasonable doubt
that [Cannon] was guilty of abduction, burglary, rape, and three
counts of use of a firearm during the commission of a felony.
Cannon v. Commonwealth. R. No.1898-14-1, slip op. at 2-3. Because the Supreme Court of
Virginia refused further review of the foregoing opinion without explanation, the reasoning of
^t^CQurTofAppeals is imputed to i]/.

Ylst. 501 U.S. at 803.

On federal habeas review, the standard for a claim challenging the sufficiency of the
evidence supporting a state conviction is “whether, after viewing the evidence in the light most

r£>

favorable to the prosecution, any rational trier of fact could/have found the essential elements of
^the crime beyond a reasonable doubt^Jackson v. Virginia. 443 U.S
original/).'

. 307, 319 (1979) (emphasis

ie federal court is required to give deference to findings of fact made by state trial

and appellate courts. 28 U.S.C^§2254(d)y Sumner v. Mata. 449 U.S. 539,546-47/(1981/, see
Wilson v. Greene. 155 F.3d 396,405-06 (4th Cir. 1998) fciting Wright v. West 505 U.S. 277,

V§)/?// 7/i<2lj pner~ -/»
SIS'

lav uxj

Case l:18-cv-01071-AJT-TCB Document 18 Filed 05/28/19 Page 15 of 34 PagelD# 967

292 (1992) for the holding that a federal habeas court is prohibited from either “considering]
anew the jury’s guilt determination or “replacing] the state’s system of direct appellate review ).
Instead, the federal court must determine only whether the trier of fact mad^ara^onal decision to
Herrera v. Collins. 506 U.S. 390,402^(1993)jHere, for the reasons which are
convict.
thoroughly expressed in the Virginia court’s opinion, it is apparent that a rational trier of fact
could have found Cannon guilty of rape, burglary and abduction as a principal in the second
degree unde^virginia law^See Jackson. 443 U.S. at 319. Accordinglyj|the state courts’ denial
of relief on Cannon’s claim was neither contrary to, nor an unreasonable application of, clearly

©

established federal law, nor was it based on an unreasonabledetermination of the facts, and the
same result is compelled here. Williams. 529 U.S. at 412-13.,

V

\

^----LdvC Uch d-f H*
In his Response jfo the Motion to Dismiss, Camion takes issue with the recitation of facts

set out in the Virginia court’s opinion, and urges this Court to look to his own presentation of the
“piatptnglfar.ts” in assessing the sufficiency of the evidence under Jackson. [Dkt. No. 16 at 9-10]
Settled precedenudictates to the contrary that a federal court on habeas review must defer to the
state courts’ findings of factj^umneB449 U.S. at 546-47, and may not revisit the jury’s

**

determination of guilt. Wright. 505 U.S. at 292. Cannon’s argument therefore must be rejected.
Claim 3: In his third federal claim (which was Claim IV in the state habeas proceeding),
Cannon contends that he received ineffective assistance of appellate counsel for three reasons.
To establish ineffective assistance of counsel, a petitioner must show that (1) “counsel’s
performance was deficient” and (2) “the deficient performance prejudiced the defendant.”
Strickland v. Washington. 466 U.S. 668,687 (1984). The AEDPA standard of review and the
Strickland standard are dual and overlapping and are to be applied simultaneously rather than

^se-e
5$

m MM'

see.

Case l:18-cv-01071-AJT-TCB Document 18 Filed 05/28/19 Page 16 of 34 PagelD# 968

sequentially. Harrington. 526 U.S. at 105. This results in a very high burden for a petitioner to
overcome, because these standards are each “highly deferential” to the state court’s adjudication,
and “when the two apply in tandem, review is doubly so.” Id
To prove that counsel’s performance was deficient, a petitioner must show that
“counsel’s representation fell below an objective standard of reasonableness” id. at 688, and that
the “acts and omissions” of counsel were, in light of all the circumstances, “outside the range of
professionally competent assistance.” Id. at 690. Such a determination “must be highly
deferential,” with a “strong presumption that counsel’s conduct falls within the wide range of
reasonable professional assistance.” Id. at 689; see also. Burket v, Angelone, 208 F.3d 172,189
(4th Cir. 2000) (reviewing court “must be highly deferential in scrutinizing [counsel’s]
performance and must filter the distorting effects of hindsight from [its] analysis”); Spencer v.
Murray. 18 F.3d 229,233 (4th Cir. 1994) (court must “presume that challenged acts are likely the
result of sound trial strategy.”). To satisfy Strickland’s prejudice prong, a “defendant must show
that there is a reasonable probability that, but for counsel’s unprofessional errors, the result of the
proceeding would have been different.” Strickland. 466 U.S. at 694. “A reasonable probability is
a probability sufficient to undermine confidence in the outcome.” Id.; accord, Lovitt v. True, 403
F.3d 171,181 (4th Cir. 2005). The burden is on the petitioner to establish not merely that
counsel’s errors created the possibility of prejudice, but rather “that they worked to his actual and
substantial disadvantage, infecting his entire trial with errors of constitutional dimension.”
Murray v. Carrier. 477 U.S. 478, 494 (1986) (citations omitted). The two prongs of the Strickland
test are “separate and distinct elements of an ineffective assistance claim,” and a successful
petition “must show both deficient performance and prejudice.” Spencer, 18 F.3d at 233.

16

Case l:18-cv-01071-AJT-TCB Document 18 Filed 05/28/19 Page 17 of 34 PagelD# 969

Therefore, a court need not review the reasonableness of counsel’s performance if a petitioner
fails to show prejudice. Ouesinberrv v. Tavlore, 162 F.3d 273,278 (4th Cir. 1998).
The Strickland analysis applies to claims of ineffective assistance on appeal as well as
at trial. Matire v. Wainwrieht. 811 F.2d 1430,1435 (11th Cir. 1987).
In Claim 3(a), Cannon contends that appellate counsel provided ineffective assistance by
failing to include a statement that “The Facts Are In Dispute” in the brief. When Cannon made
the same argument in his state habeas petition, the Supreme Court of Virginia presumptively
found the claim to be without merit for the following reasons:
The Court finds that, on appeal, Cannon’s counsel argued that “the
evidence [was] insufficient to support his convictions for abduction,
burglary, rape and three of the four counts of use of a firearm during the
commission of a felony.” Thus, Cannon’s argument on appeal was not
over what facts were presented at trial, but whether those facts were
sufficient to support die jury’s findings of guilt. The Court finds that it is
well-established that selecting issues for appeal is a matter of strategy, and
counsel need not raise every possible issue. See, e.g.. Jones v Barnes, 463
U.S. 745 (1983). As the Supreme Court has noted, “The effect of adding
weak arguments [on appeal] will be to dilute the force of the stronger
ones. ” Jones. 463 U.S. at 752. Moreover, it is well-established in Virginia
law that when reviewing a challenge to the sufficiency of the evidence, the
appellate court reviews the evidence in the light most favorable to the
party that prevailed at trial; here, the Commonwealth. See, e.g., Vasquez
v. Commonwealth. 291 Va. 232,247, 781 S.E.2d 920,929 (2016). The
Court credits counsel’s averment that she selected the arguments that she
felt “were supported by the trial evidence and the law.” The Court holds
that Cannon has therefore failed to establish that his counsel’s actions
were deficient for failing to state that the facts were in dispute.
Further, the Court finds that Cannon has failed to establish that he
was prejudiced by his counsel’s actions. Cannon alleges that had
his counsel asserted that the facts were in dispute, the Court of
Appeals would have recognized that an evidentiary hearing was
necessary. The Court finds that this assertion is wrong because
Cannon is not entitled to an evidentiary hearing on appeal. To the
contrary, the Court of Appeals and the parties are bound by the
record. Further, the Court finds that the Court of Appeals had
17

Case l:18-cv-01071-AJT-TCB Document 18 Filed 05/28/19 Page 18 of 34 PagelD# 970

access to the entire record of trial, including transcripts. Indeed, '
the Court of Appeals noted that “[t]he Commonwealth’s evidence
was competent, was not inherently incredible, and was sufficient to
prove beyond a reasonable doubt that [Cannon] was guilty of
abduction, burglary and rape and three counts of using a firearm
during the commission of a felony.” Thus, the Court holds that
Cannon has failed to allege or establish that any further recitation
of the facts on appeal would have changed the outcome of his case.
See Sigmon. 285 Va. 536,739 S.E.2d at 910. As a result, the
Court holds that Cannon has failed to establish that he was
prejudiced under Strickland.
Resp. Ex. 10, Final Order at 20-21.
As the Virginia court acknowledged, federal law is clear that “appellate counsel is given
wide latitude to develop a strategy,” Lovitt v. Angelone. 208 F.3d 172,189 (2000), and counsel
is not required to assert every conceivable claim on appeal; indeed, counsel’s choice of which
appellate issues to pursue is virtually unassailable. Jones. 463 U.S. at 751-52. Therefore, as the
court determined, appellate counsel’s failure to state that “The Facts Are In Dispute” did not
amount to deficient performance under Strickland. Further, the omission of such a statement did
not cause Cannon to suffer prejudice, for the reasons the Virginia court clearly articulated.
Accordingly, the state courts’ determination that counsel did not thereby render ineffective
assistance was factually reasonable and in accord with applicable federal principles, Strickland,
supra: see Moodv v. Polk. 408 F.3d 141,151 (4th Cir. 2005) (attorney has no duty to make
meritless arguments), and the same result is compelled here. Williams, 529 U.S. at 412-13.
In claim 3(b), Cannon contends that appellate counsel rendered ineffective assistance by
failing to object to “the misrepresentations and falsification of facts” in the Commonwealth’s
brief opposing his petition for appeal. The Virginia courts found no merit to his argument for the
following reasons:
18

Case l:18-cv-01071-AJT-TCB Document 18 Filed 05/28/19 Page 19 of 34 PagelD# 971

\

The Court finds that Cannon has failed to identify any rule of court thaf^
would permit his counsel to object to the Commonwealth’s statement of ^
facts in its brief in opposition. Further, the Court finds that he has failed to
^ \
allege, much less demonstrate, that any such objection would have been n
successful. As previously detailed, the trial record amply supported the j 4
Commonwealth’s statements of facts and arguments. Thus, the Court **
£,0^
holds that Cannon’s counsel was not ineffective for failing to make a
frivolous objection. See Correll. 232 Va. at 469-70,352 S.E.2d at 361.

.
\

Additionally, the Court finds that Cannon fully presented the factsj
and his arguments in the Court of Appeals in his petition for
appeal. The Court of Appeals then reviewed the entire record and
found the evidence sufficient to support his convictions. Thus, the
Court finds that Cannon’s opinion and conclusory allegations of
deficient performance are therefore inadequate to merit relief.
Elliott. 274 Va. at 613,652 S.E.2d at 480.
Furthermore, the Court finds that Cannon’s argument that his
appeal would have been granted had his counsel objected to the
Commonwealth’s recitation of facts is conclusory and unsupported
by any facts. Fitzgerald. 6 Va App. at 44, 366 S.E.2d at 618.
What is more, the Court finds that Cannon has failed to establish
that any objection to the Commonwealth’s statement of facts
would have changed the outcome of his appeal. See Sigmon, 285
Va. 536,739 S.E.2d at 910. Indeed, the governing standard of
review not only required the appellate courts to view the evidence
in the light most favorable to the Commonwealth, but also to
“discard” Cannon’s conflicting evidence. Vasquez. 291 Va. at
247,781 S.E.2d at 929. Thus, the Court holds that Cannon has
failed to satisfy either prong of Strickland.

J

Resp. Ex. 10, Final Order at 21-22.
For all of the reasons articulated in the foregoing orderfthe^Virginia courts’ determination^^
that appellate counsel did not run afoul of the Strickland principles by failing to object to “the
misrepresentations and falsification of facts” in the Commonwealth’s brief was factually
reasonable and in accord with applicable federal principles. Consequently, that determination
must be allowed to stand. Williams. 529 U.S. at 412-13.
In claim 3(c). Cannon asserts that appellate counsel was ineffective for failing to argue

(3>

Case l:18-cv-01071-AJT-TCB Document 18 Filed 05/28/19 Page 20 of 34 PagelD# 972

that the concert-of-action jury instruction was unsupported by the facts. Jhe YiCgipja $upr,emg

r

Court presumptively disagreed for the following reasons;.
The Court holds that selecting issues for appeal is a matter of strategy, and
counsel need not raise every possible issue. See, e.g.. Jones, 463 U.S. at
751. Indeed, “the process of ‘winnowing out weaker claims on appeal and
focusing on’ those more likely to prevail, far from being evidence of
incompetence, is the hallmark of effective appellate advocacy.” Burger v.
Kemo. 483 U.S. at 784 (other citations omitted). In applying the
Strickland test to claims of ineffective assistance of counsel on appeal,
reviewing courts must accord appellate counsel the “presumption that he
decided which issues were most likely to afford relief on appeal.” Pruett
v. Thompson, 996 F.2d 1560,1568 (4th Cir. 1993); accord Bell v. Jarvis,
236 F.3d 149,164 (4th Cir. 2000).
Here, the Court finds that counsel selected the arguments she felt
were supported by the law and the evidence. D Resp. Ex. 10, Final
Order at 20-21. Further, the Court finds that Cannon has failed to
establish that the argument he proposes would have been
success ful./Fhe Court finds that it is well-established that an
. individual may be convicted of a crime as a principle fsic] in the
second degree where there is concert of action ./See McMorris v.
Commonwealth. 276 Va. 500. 505-06. 666 S.E.2d 348, 351 (2008).

Tn defining concert of action, the Virginia Supreme Court has
stated:

All those assemble themselves together with an
intent to commit a wrongful act, the execution
whereof makes probable, in the nature of things, a
crime not specifically designed, but incidental to
that which was the object of the confederacy, are
responsible for such incidental crime ... Hence, it is
not necessary that the crime should be a part of the
original design; it is enough if it be one of the
•"* incidental probable consequences of.the execution
of that design, and should appear at the moment to
one of the participants to be expedient for the
common purpose.
Thomas. 279 Va. at 157, 688 S.E.2d at 234 (quoting Brown v.
Commonwealth. 130 Va. 733,738, 107 S.E. 809, 811 (1921)).
Further, the Virginia Supreme Court has noted that “it is well
settled in Virginia that each co-actor is responsible for the acts of
20

Case l:18-cv-01071-AJT-TCB Document 18 Filed 05/28/19 Page 21 of 34 PagelD# 973

y
tc

process

fdR

*

the others, and may not interpose personal lack of intent as_a,
defense.” Carter v, Commonwealth, 232 Va. 122, 126, 348 S.E.2d
265.267-68Cn986^Thus. the Court finds that, although Cannon’s
r.nnncpl objected to the instruction at trial, the lurv instruction was
supported bv precedent and the evidence at trial. Additionally, the
"Tmirt finds that the Virginia Supreme Court has previously ~
examined that instruction andfoundthatjC^dmol^stablisk^^-.
"improper presumption butT|^ereb^j>tatedjy3ermissive inference
Thomas. 279 Va. at 166, 688 S.E.2d at 239 (quoting Schmitt v.
Commonwealth. 262 Va. 127,145, 547 S.E.2d 186,198-99 ^
(2001))/Therefore, the Court finds that Cannon has failed to
establish that his counsel’s decision not to raise this argument on
appeal was deficient. Further, given this established precedent, the
Court finds that Cannon cannot establish that, but for his counsel’s
failure to present this frivolous argument on appeal, the outcome of
that proceeding would have been different. Therefore, the Court
holds that Cannon has failed to demonstrate that his counsel
. violated either prone of Strickland.

¥

Resp. Ex. 10, Final Order at 24-25.
The Virginia courts’ resolution of this claim was neither contrary to nor based upon an
unreasonable application of clearly established federal law, nor was it based on an unreasonable^
determination of the facts. Indeed. Cannon in this claim “essentially asks this court to reverse
the Supreme Court of Virginia on the question of whether it was objectively unreasonable for an,
attorney in Virginia to fail to make an fappellate argument! based purely on Virginia law ...
[T]his is an issue on which [federal] deference to the state courts should be at its zenith.”
Bamabei v. Aneelone. 214 F.3d 463,471-72 (4th Cir. 2000). Accordingly, the decision of the
Virginia courts to reject this claim must not be disturbed. Williams, 529 U.S. at 412-13.
Claim 4: In his fourth federal claim, Cannon argues that he received ineffective
assistance of trial counsel for several reasons.
|Tn Claim 4(a)(jyhich was Claim 111(a) in the state habeas petition), Cannon argues that
trial counsel was ineffective for failing to objeet-wheajhe prosecutor told the jury that Cannon
21

Case l:18-cv-01071-AJT-TCB Document 18 Filed 05/28/19 Page 22 of 34 PagelD# 974

had “come to the Mansards Apartment to rob people.” The Virginia habeas court rejected this

►

contention for the following reasons:

^

The Court finds that Cannon has failed to establish that this argument was
false. Cannon admitted to police that he and Goodman went to the^
Mansards apartments^tosteal from people’s cars.jFurther, Cannon
admitted that, once they were in the victim’s apartment, his mindset was
“whatever I can get, I can get.” Cannon alsojKlmits in his pleading that he
stole valuables from the victim’s apartmenkllPhe Court finds that, given
jftCannon’s admissionsjhe has failed to establish any good faith basis upon
which his counsel could have objected to the Commonwealth’s statements.
Counsel is not ineffective for failing to make a frivolous objection. See
Correll v. Commonwealth. 232 Va. 454,469-70, 352 S.E. 2d 352, 361
j
(1987) (holding counsel had no duty to object to admission of presentence^ j f{<£
report because it was admissible); cf Sharpe v. Bell, 593 F.3d 372,383
(4th Cir. 2010) (“Counsel is not required to engage in the filing of futile
motions.”) (quoting Moodv v. Polk. 408 F.3d 141,151 (4th Cir. 2005)).
Therefore, the Court holds that Cannon has failed to establish that hiss'
counsel’s performance was deficient under Strickland.

0

In addition, the Court finds thatfcannon has failed to demonstrate/
how such a frivolous objection would have changed the outcome of
>• the his case/Cannon has neither alleged nor demonstrated that x
, such an objection would have been successful./Furthgr^the Court''-'
finds that, given Cannon’s admitted involvement in the robbery,
if'Ids knowledge that Goodman was armed, his watching at the door
while Goodman threatened the victim with a gun and forced her
inside the apartment, and the evidence that Cannon gave Goodman
tape to bind the victim’s hands and urged him to “hurry up” as he
raped her, Cannon has not established a reasonable probability that,
but for his counsel’s errors, the result of the proceeding would have
been different. See Teleeuz v. Commonwealth, 279 Va. 1,12-13,
688 S.E.2d 865,875 (2010). As a result, the Court holds that
'
Cannon has failed to satisfy either prong under Strickland.

\ih"

__
/f1

i

W

5 Resp. Ex. 10, Final Order at 10-11.
As the Virginia court expressly recognized, federal laadiolds that an attomey cannot be

____ ______ gu. 7

found to have been ineffective for failing to file a futile motion.jMobdv, 408 F.3d at 151 . For the
reasons which are amply explained in its opinion, the Virginia courts’ rejection of this claim was

22

kuj

Case l:18-cv-01071-AJT-TCB Document 18 Filed 05/28/19 Page 23 of 34 PagelD# 975

both factually reasonable and in accord with this controlling federal principle, Strickland, supra,
and the same result accordingly is compelled here. Williams, 529 U.S. at 412-13.
Iijjciaim 4(b)Jlyhich encompasses stat^ClaimsD^^

Cannon contends that

counsel was ineffective for failing to object to the court’s use of the wrong standard of review for
the motion to strike, and in failing to assert the actual facts and circumstances of the case to
the jury. As to the first part of this compound argument, the Virginia courts found as follows:
The Court finds that, at the motion to strike at the close of the
Commonwealth’s evidence, Cannon’s counsel argued that Cannon was
only present to take things from cars and that the rape and abduction were
not a natural and probable consequence of that original intent to steal from
cars. Cannon’s counsel also noted Cannon’s statement that he was
shocked by what he saw Goodman doing and left the apartment after he
saw it. Cannon’s counsel moved to strike the armed burglary and firearms
charges based on Cannon’s statement that he entered the apartment after
Goodman and the victim were already there. She further argued that, since
the tape was given to Goodman before he started raping the victim, that act
was not done in furtherance of the rape. In denying the motion to strike,
the Court noted that Cannon was standing there when Goodman pulled a
gun on the victim, that they went to the apartments with the intention to
steal things, that Cannon stood at the door while everything was going on
in the living room, and that he brought Goodman the tape in the bedroom.
In addition, the Court noted that the determination of “whether the offense
was a natural and probable result of the intended wrongful act is usually
for the jury.”CThe Court finds that the appropriate standard was used in
ruling on Cannon’s motion to strike at the close of both the
Commonwealth’s evidence and at the close of all the evidence. Rule
3A:15. Thus, the Court holds that Cannon’s counsel was not ineffective
for failing to make a frivolous objection. See Correll, 232 Va. at 469-70,
352 S.E. 2d at 361. \
Further, the Court finds that Cannon has not established that he
was prejudiced by his counsel’s failure to object. The Court finds
that Cannon has failed to allege, much less demonstrate, that such
an objection would have been successful. Additionally, Cannon
only argues that such an objection would have alerted the Court to
the error and preserved it for appeal. Thus, the Court finds that
Cannon has failed to allege and demonstrate that the outcome of
the trial would have been any different but for his counsel’s alleged
23

¥

uf)
k^

Case 1:18-CV-01071-AJT-TCB Document 18 Filed 05/28/19 Page 24 of 34 PagelD# 976
r/

error. See Siemon. 285 Va. at 536, 739 S.E.2d at 910 (holding
ineffective assistance of counsel claims were “facially lacking”
under the “prejudice” prong of the two-part test in Strickland, for
“fail[ing] even to assert, much less demonstrate, thaf but for
counsel’s alleged errors, the result of his trial would have been
different”). Indeed, the Court finds that subsequent review by the
Virginia Court of Appeals and the Virgipi^Suprerne Court
squarely forecloses this argument. Tlje'Court of Appeals expressly
found the evidence sufficient to sjqiport the Court’s judgment, thus
defeating any argument-that apjfhcation of a different standard
^ <*ka; *■
would have yielded a diffeFdnt'result. Thus the Court holds that- /
Cannon has failed to satiffyeither prong of the Strickland test.

1

Jr

a
f

r

£

Resp. Ex. 10, Final Order at 12-13?

2

For the same reasonSwhich have been discussed in connection with Cannon’s earlier
claims, the foregoipg'cletermination was factually reasonable and in accord with controlling
federal authorities, Strickland, supra, and hence must be allowed to stand. Williams, 529 U.S. at
412-13.
As to the second portion of Claim 4(b), where Cannon asserts that his counsel was
ineffective for failing to argue the actual facts and circumstances of the case to the jury, the
Virginia courts determined as follows:
Selecting which arguments to advance and which to ignore is a tactical
choice reserved for counsel and is not subject to second-guessing on
collateral review. See Gonzalez v. United States. 553 U.S. 242,249
(2008) (“Numerous choices affecting conduct of the trial, including the
objections to make, the witnesses to call, and the arguments to advance,
depend not only upon what is permissible under the rules of evidence and
procedure but also upon tactical considerations of the moment and the
larger strategic plan for trial.”)... Here, the Court finds that what Cannon
characterizes as the “material and exculpatory facts” were in evidence for
the jury to consider. Furthermore, the Court finds that Cannon’s counsel
pursued a reasonable defense in attempting to convince the jury that even
though Cannon embarked with Goodman on a scheme to steal from cars,
the decision to abduct and rape the victim was entirely Goodman’s and
Cannon did nothing to aid and abet that separate scheme. The fact that his
defense was unsuccessful does not demonstrate that counsel’s performance
24

b

Case l:18-cv-01071-AJT-TCB Document 18 Filed 05/28/19 Page 25 of 34 Page ID# 977

was deficient. See Richter. 562 U.S. at 109-10; Lawrence v. Branker, 517
F.3d 700, 716 (4th Cir. 2008); Wright v. Anaelone, 151 F.3d 151,161 (4th
Cir. 1998).
The Court finds that, at closing, Cannon’s counsel emphasized
that: 1) Cannon was only there to rob cars; 2) there were no
fingerprints or other evidence establishing that the tape found in
Cannon’s apartment was the same tape used to bind the victim; 3)
Cannon was not in the room when Goodman raped the victim; and
4) Cannon was shocked and horrified by Goodman’s actions.
Thus, the Court finds that, of the five “’’facts” that Cannon now
complains his counsel failed to raise, she actually presented four of
them for the jury’s consideration. With respect to the fifth “fact,”
that Cannon was not even in the apartment when the victim was
raped, the Court finds that the record does not support this claim.
To the contrary, Cannon’s statement to the police established that
he “knew what [Goodman] was doin[g]” and that “he [saw] him
having sex with her.” Further, Cannon’s apology note indicates that
he “should [have] been a bigger man and stop [sic] what was going
on.” In addition, the Court finds that the victim’s testimony that
Cannon entered the room while she was being raped further
contradicts this claim. Thus, the Court finds that Cannon has failed
to establish that his counsel’s performance was deficient under
Strickland.
The Court further finds that Cannon also has failed to allege and
demonstrate that the jury would have reached a different verdict
had his attorney emphasized the arguments he suggests. See
Siemon. 285 Va. at 536,739 S.E.2d at 910. Indeed, the Court
finds that Cannon’s counsel did argue that the Commonwealth had
failed to establish that Cannon was a principal in the second degree
or that there was a concert of action with respect to the rape and
abduction. Further, the jury had the opportunity to hear Cannon’ s
version of events through his recorded interview with police.
Considering all the evidence, the jury convicted Cannon of these
crimes. The Court holds that the fact that Cannon’s counsel did
not make the argument or present the evidence the same way
Cannon or another attorney would have does not demonstrate
ineffective assistance, nor does it establish that, but for counsel’s
alleged errors, the jury would have reached a different verdict. See
Teleguz, 279 Va. at 6,688 S.E.2d at 871; Strickland. 466 U.S. at
694. As a result, the Court holds that Cannon has failed to satisfy
either prong of Strickland.

25

Case l:18-cv-01071-AJT-TCB Document 18 Filed 05/28/19 Page 26 of 34 PagelD# 978

Resp. Ex. 10, Final Order at 13-15.
As the Virginia court recognized, it is well settled in federal jurisprudence that “‘strategic
choices made [by counsel] after thorough investigation... are virtually unchallengeable....’” Gray
v. Branker. 529 F.3d 220,229 (4th Cir. 2009), quoting Strickland, 446 U.S. at 690-91. A
considered choice regarding the use of defenses is one such strategic choice, and it consequently
is entitled to a “strong presumption” that it amounted to reasonable professional assistance.
Cardwell v. Netherland. 971 F.Supp. 997,1019 (E.D. Va. 1997); Strickland, 466 U.S. at 689.
Here, it is apparent that defense counsel made a considered and reasonable choice to argue
exactly what Cannon now suggests - that he was not a principal in the second degree and that
there was no concert of action with respect to the rape and abduction. The fact that the jury
chose to reject those arguments and to find Cannon guilty does not indicate that counsel provided
ineffective assistance in advancing them. The decision of the Virginia courts with respect to
claim 4(b) was in accord with these principles, and its result accordingly must not be disturbed
here. Williams. 529 U.S. at 412-13.
^ ^In*Claim 4(c) (which was claim 111(d) in the state courts), Cannon contends that trial
counsel provided ineffective assistance by failing to file /^“correction of f<

;”Jvithfhis

for appeal^The^Virginia courtsdetermined^his claim to be meritless:
The Court finds that Cannon has failed to establish that his
counsel’s actions were deficient. While Cannon complains that his
counsel failed to file a “correction of facts” pursuant to Supreme
Court Rule 5A: 8, the Court finds that the section to which he refers
addresses a written statement in lieu of transcripts. Since the
transcripts of this case were submitted to the Court of Appeals in
,
accordance with Rule 5A:8(b), the Court finds that there was no J
need for Cannon’s counsel to submit a written statementffiurther,
the Court finds that Cannoi^haTfailed to identifigsith specificity ^
any errors that existed in the transcripts that required correction
26

(o
X

^

Case l:18-cv-01071-AJT-TCB Document 18 Filed 05/28/19 Page 27 of 34 PagelD# 979

pursuant to Rule 5A:8(d). The Court holds that habeas corpus \(^)>
relief is not warranted where the petitioner fails to “articulate a /
factual basis to support [his] claims.” Muhammad v. Warden, 274
Va. 3,17, 646 S.E.2d 182,194 (2007k cf. Mallory v. Smith, 27
F.3d 991,995 (4th Cir, 1994) ....Thus, the Court holds that
Cannon’ s^mere conclusiontfcat his counsel's pertormance^was
constitutionally unreasonable is insufficient to merit relief.

!\

(2)

x)

Additionally, the Court finds that Cannon has failed to establish
that he was prejudiced bv his counsel’s alleged failure to correct the record. ..T in the context of an appeaQhe Court further finds
that Cannon has failed to demonstrate how such an objection
^
would have changed the rulings of either the Court of Appeals or J
the Supreme Court. Indeed, Cannon makes the same argument
here that he presented on appeal: that he was not an active
participant in the burglary, abduction or rape of the victim. —
^However, the Court of Appeals held that Cannon “aided and
abetted Goodman in accomplishing the burglary and abduction” by
standing guard at the door, and that “[t]he evidence fully
supported] the jury’s conclusion that [Cannon] aided and abetted
and was guilty of the offenses as a principal in the second degree/^
The Court finds that Cannon’s conclusoiy argument fails to
estahlislfifiow tne evidence at trial (failed to support the jury’s
verdicts. Thus, the Court holds that Cannon has failed to establish
a violation of either prong of Strickland.

Up'te*'. 7
Si*»**r* *

Resp. Ex. 10, Final Order at 15-16.
For the reasons which are clearly explained in the state court’s foregoing order, the fact
that trial counsel did not file a “correction of facts” for use on appeal satisfies neither prong of
the Strickland test, so its rejection of claim 4(c) may not be disturbed. Williams, 529 U.S. at
412-13.
In Claim 4(d) (which was state claim 111(e)), Cannon argues that trial counsel was
ineffective for failing to argue during the motion to set aside the verdict that the
Commonwealth’s case was based on a misrepresentation of the facts. The Virginia courts
rejected this contention for the following reasons:
27

Case l:18-cv-01071-AJT-TCB Document 18 Filed 05/28/19 Page 28 of 34 PagelD# 980

4?

Y The Court finds that Cannon has failed to establish thafmsv J
counsel’s performance was deficient under Strickland. The^Gourt
counsel
""yfinds that, at tne mottotrttrset-aside^the
argued that~the~evidence was insufficient to establish that the rapySj
and abduction were naturaf probable consequences of Cannon’s
participation <*n a robbery. Counsel also argued that Cannon’s
presence when Goodman raped the victim was insufficient for him
to be convicted as a principal in the second degree. The Court
m '
finds that, while Cannon asserts in concluso ‘
^
counsel should have presented the “real facts” to the Court, he has f |
failed to proffer what alternative arguments his counsel should
have made, or provide any evidence to contradict the facts.—
\ established at the trial, including his voluntary statements to the ^
\ policeTTheCourt finds that this failure to proffer is fatal to his
L_elaim. Muhammad. 274 Va. at 17,646 S.E.2d at 194.
To the extent that Cannon relies upon his summary of facts to
support this claim, the Court finds that his allegations are,
unsupported by the evidence.
Cannon alleges that the Commonwealth misrepresented the fact
that he had come to the Mansards apartments to rob people;
however, the Court finds that Cannon himself admitted that his
intent was to break into people’s cars and steal their personal
property. ...

Cannon alleges that the Commonwealth misrepresented him as the
“get-away driver,” however the Court finds that his proffered
evidence established that he drove his girlfriend’s SUV on the
night of these offense, and that he drove Goodman to Portsmouth
—~—_after_they left the victim’s apartment...._____ _____________
—^ Cannon alleges that the Commonwealth misrepresented the fact
that he and Goodman were side-by-side when Goodman pulled the
gun and commenced that burglary and abduction. However, the
Court finds that Cannon admits that he saw Goodman present the
gun and noneof^v^^^^^^mg^con^^^^^^^^OT|^^
Cannon alleges that the Commonwealth misrepresented the fact
that he handed Goodman the tape that was used to bind the victim.
But, the Court finds that the victim testified to that fact at trial. ...
Cannon alleges that the Commonwealth misrepresented the fact

Case l:18-cv-01071-AJT-TCB Document 18 Filed 05/28/19 Page 29 of 34 PagelD# 981

that his presence in the apartment during the rape was an act in^-v
furtherance of the crime. The Court finds that that argument,
however, did not assert a fact but a conclusion of law that the
Commonwealth asked the jury to find from the evidence presented.
... Indeed, the Court of Appeals agreed that Cannon’s presence in
the room during the rape, as well as his providing the tape to bind
the victim and exhorting Goodman to “hurry up,” were acts that
assisted Goodman in the commission of the crimes. ...

t

qJ‘

Cannon alleges that the Commonwealth misrepresented the fact
that he said “hurry up” while the rape was ongoing. The Court
finds that the victim testified that, while Goodman was raping her,
Cannon walked into the room, laughed, and said “hurry up.”...
Finally, Cannon alleges that the Commonwealth misrepresented
the fact that his telling Goodman to “hurry up” was an act in
furtherance of the crime. Again, the Court finds that this was not a
statement of fact, but a conclusion of law for the jury’s
determination.... Thus, the Court holds that Cannon has failed to
establish that the Commonwealth misstated the evidence or misled
the Court. See Juniper fv. Wardenl. 281 Va. [277] at 299, 707
S.E.2d [290] at 309 [2011].
As a result, the Court finds that Cannon has failed to identify any^
J _^ \
misrepresentations that his counsel could have corrected/lo the~
(
extent tfiaTCannon’lCtheoryJ>f the case differedlromthe
Commonwealth’s theory, the Court finds that that argument was
thoroughly presented to the Court and the jury. The fact that the
jr*"3
jury did not believe Cannon’s self-serving version of events, or that “
its chose to believe the victim’s account instead of his, does not
establish that his counsel’s efforts were deficient. Thus, the Court
holds that Cannon has failed to satisfy Strickland’s performance
prong.
Further, the Court finds that Cannon has failed to establish that he
was prejudiced by his counsel’s actions. The Court finds that
Cannon cannot demonstrate that the outcome of the motion to set
aside the verdicfljwould have been different had the his counsel
asserted the “real tacts." 7.. t he court iinds that the appropriate
standard of review was applied to the motion to set aside the
verdict and that the jury’s verdict was not plainly wrong or without
evidence to support it. Thus, the Court holds that Cannon’s claims
fails to establish a violation of either prong of Strickland.
^

1

29

IM.

Y
/

Case l:18-cv-01071-AJT-TCB Document 18 Filed 05/28/19 Page 30 of 34 PagelD# 982

Resp. Ex. 10, Final Order at 16-19.
For the reasons which are thoroughly stated in the foregoing Order, Cannon’s allegation
that counsel provided ineffective assistance by failing to correct misrepresentations of favt at the
motion to set aside the verdict satisfies neither prong of the controlling Strickland analysis, so the
Virginia courts’ rejection of Claim 4(d) warrants no federal relief. Williams, 529 U.S. at 412-13.
\ln a nortion of Claim 4(e)jl(which was state claim 111(f)), Cannon asserts that he is entitled
’ to habeas relie^basecT bn

the cumulative prejudice of the totality of trial counsel’s performance.\ ^

The Virginia courts determined the claim did “not set forth a cognizable basis for habeas corpus
relief’ because ^Virginia law does not recognize such a claim.” Resp. Ex. 10, Final Order at 19.
Further, the court expressly looked to applicable Fourth Circuit precedent which holds that
|federafTaw^ikewise recognizes that the cumulative effect of non-errors does not amount to error.
See Fisher v. Angelone. 163 F.2d 835,852 (4th Cir. 1998) (noting that, where it is determined
that none of counsel’s actions amounted to constitutional error, “it would be odd, to say the least,
to conclude that those same actions, when considered collectively,” deprived defendant of a fair
trial); Mueller v. Angelone. 181 F.3d 557,586 n. 22 (4th Cir. 1999) (holding that the
“cumulative effect” argument is “squarely foreclosed” by Fisher). Under these circumstances,
J this portion of Claim 4(e) patently warrants no relief^-'''

----------------- -

~

7=——■

—

-J

In the remainder of Claim 4fel. Cannon contends thatappellate counsel’s performance^
also should be considered in his cumulative prejudice claim^^jam^yi he asserts that trial
counsel provided ineffective assistance bv failing to object to the concert-of-action jury
instruction b^titeeroihtckhatTf^^^g^^MioBSLg^d did not argue that it should not, be.
given RntnoFthese argnments are deemed to be simultaneously exhausted and defaulted

30

Case l:18-cv-01071-AJT-TCB Document 18 Filed 05/28/19 Page 31 of 34 PagelD# 983

because Cannon did not raise them in the Supreme Court of Virginia. Gray, 518 U.S. at 161.
Cannon asks this Court to excuse the default of these claims pursuant to the rule announced in
Martinez. 566 U.S. at 1. In that case, the Supreme Court
... held that a federal habeas petitioner who seeks to raise an
otherwise procedurally defaulted claim of ineffective-assistance-oftrial-counsel before the federal court may do so only if: (1) the
ineffective-assistance-of-trial-counsel claim is a substantial one; (2)
the ‘cause’ for default ‘consists] of there being no counsel or only
ineffective counsel during the state collateral review proceeding’; (3)
‘the state collateral review proceeding was the initial review
proceeding in respect to the ineffective-assistance-of-trial-counsel
claim’; and (4) state law requires ‘requires that an ineffectiveassistance-of-trial-counsel claim be raised in an initial-review
collateral proceeding.’
Fowler v. Jovner. 753 F.3d 446,461 (4th Cir. 2014), quoting Trevino v. Thaler, 569 U.S. at__ ,
133 S. Ct. 1911,1918 (2013). The Fourth Circuit has interpreted Martinez as creating a “narrow
exception” to the general rule announced in Coleman v. Thompson. 501 U.S. 722, 754-55 (1991)
that “an attorney’s ignorance or inadvertence in a post-conviction proceeding does not qualify as
cause to excuse a procedural default.” Now under Martinez, “inadequate assistance of counsel
[or no counsel] at initial-review collateral proceedings may establish cause for a prisoner’s
procedural default of a claim of ineffective assistance at trial.” Id., 566 U.S. at 9.
Martinez does not apply to permit review of Cannon’s defaulted ineffective assistance,
arguments because the allegations he presents are not sufficiently “substantial” to come within
the “narrow exception” it created. As the Court in that case stressed, “To overcome the default, a
prisoner must also demonstrate that the underlying ineffective-assistance-of-trial-counsel clairnis.
a substantial one, which is to say that the prisoner must demonstrate that the claim has some
merit.” Martinez. 132 S. Ct. at 1318. It is the petitioner’s burden to demonstrate that his claims

31

Case l:18-cv-01071-AJT-TCB Document 18 Filed 05/28/19 Page 32 of 34 PagelD# 984

are “substantial,” Fowler. 753 F.3d at 461, and Cannon fails to make such a showing.
argues that the efforts Cf^his appellat^
JiNhe defaulted portion of Claim 4(e), Cannon_____
(counse^contributed^tBkjhe cumulative prejudice he suffered as the resultofhisdawyer’s
ineffective assistance. As

lussed above, however, nether Virgima/nor federal law recognizes

cumulative prejudice as a cognizabl^hasis for habej
I

:orpus relief. Fisher. 163 F.2d at 852.

Moreover, the Supreme Court has expresstydejdined to extend the holding in Martinez to allow a
federal court to reach a pn
Davila v. Davis,

[urally barred claim of ineffective assistance by an appellate lawyer.

U.S. _, 137 S.Ct. 2058,2065 (2017).jciearl^4hen, Cannon fails to

overcgtfne the default of this portion of Claim 4(e).
^inClaim 4(f)jcannon contends that his trial counsel provided constitutionally deficient,
representation by failing to object to the concert-of-action jury instruction or to argue against its
use on the ground that it impermissibly shifted the burden of proof to the defens^To establish
that this claim is substantial and hence warrants application of the Martinez exception, Cannon

w

would have to demonstrate both that it is meritorious and that “no competent counsel, in the
exercise of reasonable professional judgment, would have omitted” the argument Cannon now
suggests. See Hittston v. GDCP Warden. 759 F.3d 1210, 1263 (11th Cir. 2014). This he cannot
doy^
First, the record reveals that counsel in fact did object to the concert-of-action jury
instruction, albeit not on the ground of unconstitutionality Cannon now suggests. See Tr.
4/9/2014 at 271-72. Moreover, even had counsel done so, the objection properly would have
been overruled. Cannon argues that the concert-of-action instruction, coupled with the
instruction that the jurors could infer that a person intends the natural and probable consequences

32

(XgAjJ

(V—

Case l:18-cv-01071-AJT-TCB Document 18 Filed 05/28/19 Page 33 of 34 PagelD# 985

of his actions, created a unconstitutional mandatory presumption and thus violated the rule,of.

t>

Sandstrom v. Montana. 442 U.S. 510 (1979) and its progeny. Pet, at 102-09. It is true that the
due process guarantee is violated when the burden of disproving an element of a crime charged is
shifted to the defendant. Mullanev v. Wilbur. 421 U.S. 684 (1975). Thus, where a jury

\

instruction shifts the burden of persuasion by means of a mandatory presumption, an ensuing \
conviction cannot stand. Sandstrom. 442 U.S. at 514 -15. On the other hand, where the jury '
t/

instruction! creates no more than

a permissive inference, ^ie Due Process Clause is violated only
- -

/

if the suggested conclusion is unreasonable imlight of the proven facts. Francis v. Franklin. 471
U.S. 307, 314- 15 (1985); Ulster Countv Coufo v. Allen. 442 U.S.140, 157-63 (1979). The

V

ah

nature of a presumption is determined by analyzing the “words actually spoken to the jury,”

4#*

because “whether a defendant has been accorded nis ednstitCrtfonal rights depends upon the way
in which a reasonable juror could have interpretedItBe msstrdctions.” Sandstrom. 442 U.S. at 514.
In this case, the jury was instructed that|‘[i]T therels a concert of action v^l th the resulting
crime one of its incidental probable consequences, then whether such crime was originally

#v

contemplated or not, all who participate in any way to bringjt_2houtareetiualjjLgnswerablgand^
bound by the acts of every other person connected with the consummation of... such resulting
crime.” Tr. 4/9/2014 at 276. In addition, the jury received the Virginia standard instruction that
“[y]ou may infer that every person intends the natural and probable consequences of their acts.”

ArftV

Id. at 275. ^Thesemstructions ,j^kher alone or jjyjgjicert, did not violate Cannon’s right to due
process . “The Sandstrom line of cases addresses jury instructions that explicitly create a

¥

presumption of intent by using the word ‘presume.’” Hall v. Dir.. Va. Dep’t of Corr., No.
3:09cv647,2010 WL 3522966 at *6 (E.D. Va. Sep. 7,2010), and cases cited at n.7. The concert-

33

\#>

tip-

Case l:18-cv-01071-AJT-TCB Document 18 Filed 05/28/19 Page 34 of 34 PagelD# 986

of-action instruction given to Cannon’s jury contained no such language. In addition, the
constitutional validity of Virginia’s instruction on natural and probable consequences is well
established. See Morva v. Davis. No. 7:13cv00283,2015 WL 1710603, at *33 (W.D. Va. Apr.
15,2015) (“In order to find a violation ofSandstrom [from the use of Virginia’s natural and
probable consequences instruction], the court would have to read the permissive term ‘may’ in
the instruction... as the mandatory terms ‘should’ or ‘shall.’ [The instruction] permitted the jury
to infer intent as to the consequences of an act, but did not require such an inference. As such, it
did not improperly shift the burden of proof, run afoul of Sandstrom. or violate due process.^-),
affd. _821 F.3d 517 (4th Cir. 2018)|^minon^ffersnoplausibleM-gumentto support his theory
that giving his jury two factually-appropriate instructions that have been held not to violate
Sandstrom somehow created a Sandstrom violatiorjyAccordingly, he cannot show that trial
counsel violated either prong of the Strickland analysis by failing to make such a frivolous
argument, and he has failed to carry his burden to show that this claim of ineffective assistance is
sufficiently substantial to warrant application of the Martinez exception to excuse its default.
V. Conclusion
For the foregoing reasons, respondent’s Motion to Dismiss this petition will be granted,
and the petition will be dismissed with prejudice. An appropriate Order and judgment shall
issue.
Entered this 3

k

day of

2019.

kVf

Anthony J. Trer.ga
United States Oisl

Alexandria, Virginia

Ige

34

X. S

&

aw*

VIRGINIA:
3n the Supreme Count of Virginia held, at the Supreme Count {Building in the
City, of {Richmond on Monday the 5th day of Manch, 2018.
Appellant,

William David Cannon,
against

Record No. 170821
Circuit Court No. CL16-4979
Appellee.

Director of the Department of Corrections,
From the Circuit Court of the City of Virginia Beach

Upon review of the record in this case and consideration of the argument
submitted in support of the granting of an appeal, the Court is of the opinion there is no
reversible error in the judgment complained of. Accordingly, the Court refuses the petition for
appeal.

A Copy,
Teste:
Patricia L. Harrington, Clerk
By:
Deputy Clerk

ix 0-Cb
\(\J

VIRGINIA:
Jn the Supreme Coivd of Virginia held at the Supreme Crnvtt {Budding in the
Citg, of {Richmond on {Jhwiadag the Wth dag of Mag, 2C18.

William David Cannon,
against

Appellant,

Record No. 170821
Circuit Court No. CL16-4979

Director of the Department of Corrections,

Appellee.

Upon a Petition for Rehearing

On consideration of the petition of the appellant to set aside the judgment
rendered herein on the 5th day of March, 2018 and grant a rehearing thereof, the prayer of the
said petition is denied.

A Copy,
Teste:
Patricia L. Harrington, Clerk
By:
Deputy Clerk

\

cttt\

ii

3 tf-CM* WO /

VIRGINIA;
In the Court ofjippeaCs of Virginia on

Monday

the 4th day of May, 2015.

William David Cannon,
against

Appellant,

Record No. 1898-14-1
Circuit Court Nos. CR12-189, CR12-1640 and CR14-83

Commonwealth of Virginia,

Appellee.
from the Circuit Court of the City of Virginia Beach
Per Curiam

This petition for appeal has been reviewed by a judge of this Court, to whom it was referred pursuant
to Code § 17.1-407(C), and is denied for the following reasons:
I. through III. Appellant was convicted of abduction, robbery, burglary, rape, and four counts of use
of a firearm during the commission of a felony. He contends the evidence is insufficient to support his
,. :-v . ''.-a';.
:
convictions for abduction, burglary, rape, and three of the four counts of use of a firearm during the
commission of a felony. He does not challenge his convictions for robbery and the use of a firearm during
the commission of robbery
“On appeal,1 vye review the evidence in the light most favorable tq the Commonwealth, granting to it
all reasonable inferences fairly deducible therefrom.’” Archer v. Commonwealth. 26 Va. App. 1, 11, 492
S.E.2d 826, 831 (1997) (quoting Martin v. Commonwealth. 4 Va. App. 438, 443, 358 S.E.2d415,418
(1987)).
So viewed, the evidence proved that on September 25, 2011, the victim returned to her apartment near
midnight. As she parked her car, she noticed two men walking on the sidewalk. As she walked to her
apartment, one of the men was in front of heL.and.the other was behind her. When she reached the door, she.
heard a man tell her to stop. She turned and saw one of the men pointing a gun at her. She identified the

en Jfx f

ApfoeKviiy D
y/ft, £onr\\ *L% iqaIq
\m. .3.

Dm'

flpp?fv/i/U fl "

CLS (jijpr&rne

Opini<Mr>

^ Qpp^/i I ~

~ Ri^/wx/

u\n

/K^/V-nsf

h\n

V (4/fInAiX.

IXI Ml

lifting

RuU N.(i)n\(i.
i?uinp.

6

n

gunman as Rolando Goodman. Goodman instructed the victim to go inside. Appellant, the other man, stood
by the door.
Goodman pulled the victim to a back bedroom and attempted to tie her hands. Appellant initially
remained at the front door but then came into the bedroom and asked Goodman where the victim’s cash was
located. The victim testi fied appellant brought Goodman a roll of tape which Goodman used to bind her
hands. Goodman gagged the victim by putting a sock in her mouth, searched her pockets, pulled down her
pants, and penetrated her vagina with his penis. The victim could hear appellant opening drawers and closets
in other rpoms.'^buring the sexual assault, appellant entered the bedroom, laughed, and stated,'“hurry up, I’m
about to go get the car,” ** p 1^3

ass&oJ)' UdJ &hdeJ-

The victim later discovered that jewelry and other items were taken from her residence. The police
located some of the victim’s property from a residence where appellant had been living. In a statement to the
police following his arrest, appellant admitted he was with Goodman during the home invasion. Both
appellant and Goodman had pawned some of the victim’s property.
“A principal in the second degree, or an aider or abettor as he is
sometimes termed, is one who is present, actually or constructively, assisting
the perpetrator in the commission of the crime. In order to make a person a
principal in the second degree, actual participation in the commission of the
crime is not necessary.; The test is whether Or not he was encouraging, inciting,
or in some manner offenrig aid in the commission of the crime. If he was
present lending countenance, or otherwise hiding while another did the act, he
is an aider and abettor or principal in the second degree.”
Thomas v. Commonwealth. 279 Va. 131, 156-57. 688 S.E.2d 220.234 (2010) (quoting Muhammad v.

.

m _

Commonwealth. 269 Va. 451, 482, 619 S.E.2d 16, 33 (2005)).

<

or

We have previously held that
“proof that a person is present at the commission of a crime without
\
disapproving or opposing it, is evidence from which, in connection with other
circumstances, it is competent for the jury to infer that he assented thereto, lent
to it his countenance and approval, and was thereby aiding and abetting the
___same.”

b&ec

-2-

li'>!

^ /JO Qx/MCVH-O Of TMM *

w?on fjf ftfPiddvi-)’ of Cmwn fd-fu&e U>& in-Q&k

Pueliesev. Commonwealth. 16 Va. App. 82, 93-94, 428 S.E.2d 16, 25 (1993) (quoting Fosters
Commonwealth. 179 Va. 96, 99-100, 18 S.E.2d 314,316(1942)).
In this case, appellant concedes he fully participated in the robbery but asserts he did not join in or aid
and abet the burglary, abduction or rapel^However. the evidence demonstrata^appellant stood at the doorog^ ■J
^
as Goodman forced the victim inside and pulled her to a back bedroom. By^tanding guardat the~door^
7
appellant aided Goodman in accomplishing the burglary and abduction(g^ppellant also brought Goodman the

i '

tape he used to bind the victim prior to sexually assaulting her. Appellant entered the room during the rayc.f
suggested Goodman “hurry,” and indicated he was preparing the leave the scene.^ppeliaht*s actions again
assisted Goodman in the commission of the offense, Appellant searched the. victim’sresidencewhile

—" '

; • _ 7; vp;'.

Goodrhan raped the victim, provided Goodman assistance, and helped Goodman flee the scene. The evidence
fully supports the jury’s conclusion that appellant aided and abetted and was guilty of the offenses as a
principal in the second degree. The Commonwealth’s evidence was competent, was not inherently incredible,
and was sufficient to prove beyond'a reasonable doubt that appellant was guilty of abduction, burglary, rape,
and three cpuntsbf use Of afirearfnclunpgthe Commissionof a, felony.
This order is final for purposes of appeal unless, within fourteen days from the date of this order, there
are further proceedings pursuant to Code § 17,1-407(D) and Rule 5.A: 15(a) or 5A:15A(a)j as appropriate. If
•j.

appellant.files a demand for consideration by a three^judge panel, pursuant to those rules the demand shall
include a statement identifying how this .Order is in error.
The trial court shall allow court-appointed counsel the fee set forth below and also counsel’s
necessary direct out-of-pocket expenses. The Commonwealth shall recover of the appellant the costs in this
Court and in the trial court.
This Court’s records reflect that Melinda R. Glaubke, Esquire, is counsel of record for appellant in
this matter.

-3-

Costs due the Commonwealth
by appellant in Court of
Appeals of Virginia:
Attorney’s fee $400.00 plus costs and expenses
A Copy,
Teste:
Cynthia L. McCoy, Clerk
By:

Deputy Clerk

-4-

VIRGINIA:
Jn the Sup'teme Oxuvit of Virginia held at the Supreme Qowtt building, in the
City, al SUchnuutd on Wednesday the 3>td dm oj duguat, 2016.
William David Cannon,
against

Appellant,

Record No. 151941
Court of Appeals No. 1898-14-1

Commonwealth of Virginia,

Appellee.
From the Court of Appeals of Virginia

Upon review of the record in this case and consideration of the argument submitted in
support of the grantirig of an appeal, the Court refuses the petition for appeal.
The Circuit Court of the City of Virginia Beach shall allow court-appointed counsel the
fee set forth below and also counsel's necessary direct out-of-pocket expenses. And it is ordered
that the Commonwealth recover of the appellant the costs in this Court and in the courts below.
Justice McCullough took no part in the consideration of this case.
Costs due the Commonwealth
by appellant in Supreme
Court of Virginia:
Attorney's fee

$850.00 plus costs and expenses
A Copy,
Teste:

By:

Rppp.n^/y

D

F5im

s

13 page s

VIRGINIA:
IN THE CIRCUIT COURT OF THE CITY OF VIRGINIA BEACH
WILLIAM DAVID CANNON,
Petitioner,
v.

CASE NO. CL16-4979

DIRECTOR,
DEPARTMENT OF CORRECTIONS,
Respondent.
FINAL ORDER
This matter came before the Court on Petition for Writ of Habeas Corpus and
Respondent’s Motion to Dismiss. Upon mature consideration of the pleadings and exhibits,
controlling legal authority, and the record in the case of Commonwealth v. William David
Cannon. Case Nos. CR12-189-00, -89-01, 1640-00, -1640-02, -1640-03, -1640-04, CR14-83-00,
and -83-02, which is hereby made a part of the record in this case, the Court makes the following
findings of fact and conclusions of law in accordance with Virginia Code § 8.01-654(B)(5):
The petitioner, William David Cannon, is detained under a final order of the Court
entered on September 25, 2014. (Case Nos. CR12-189-00, -89-01, 1640-00, -1640-02, -1640-03,
-1640-04, CR14-83-00, and -83-02). A jury convicted Cannon of robbery, rape, armed burglary,
abduction, and 4 counts of use of a firearm in commission of a felony on April 10, 2014 and
recommended a sentence of fifty-eight years’ incarceration. l

At sentencing, the Court

considered the presentence report and, after taking evidence and hearing argument from counsel,

l

Cannon was acquitted by the jury on charges of object sexual penetration, use of a firearm in
commission of object sexual penetration, and conspiracy to commit armed statutory burglary.
Those charges are therefore not the subject of this petition. Additionally, Cannon states in his
petition that he concedes the charge of robbery and does not challenge that conviction or the
accompanying firearm conviction in this petition. (Pet. at 29-30).

en

imposed the sentence fixed by the jury. (Resp. Ex. A at 7-8; Sentencing Transcript of September
23, 2014).
The Court finds that Cannon’s petition for appeal was denied by the Court of Appeals on
May 4, 2015. The Court further finds that his petition for appeal to the Supreme Court of
Virginia was denied on August 3, 2016. Cannon was represented at trial and on appeal by
Melinda Glaubke, Esq.
Present Petition
The Court finds that on October 28, 2016, Cannon timely filed the instant petition for
writ of habeas corpus. Specifically, Cannon raises the following claims:
I.

The trial court abused its discretion by denying Cannon’s
motion to strike at the close of the Commonwealth’s
evidence;

II.

There was insufficient evidence as a matter of law to
sustain the verdicts against Cannon;

III.

Ineffective assistance of counsel at trial;
(ju) Trial counsel was ineffective for failing to object to
the Commonwealth’s statements;
b. Trial counsel was ineffective for failing to object to
the standard of review at the motion to strike;
c. Trial counsel was ineffective for failing to make an
appropriate argument to the jury;
(dV) Trial counsel v/as ineffective for failing to submit a
“correction of facts” on appeal;
^eJ) Trial counsel was ineffective for failing to establish
the Commonwealth’s misrepresentations of fact at
the Motion to Set Aside the Verdict; and,
f. Trial counsel was ineffective based upon the
cumulative prejudice of her errors.

IV.

Ineffective assistance of counsel on appeal;
Appellate counsel was ineffective for failing to state
that the facts were in dispute;

2

b. Appellate counsel was ineffective for failing to
object to the misrepresentation of. facts in the
Commonwealth’s Brief in Opposition;
c. Appellate counsel was ineffective for failing to
assert Cannon’s right to have the evidence viewed
in his favor on appeal; and,
d. Appellate counsel was ineffective for failing to
assert a lack of factual foundation to support the
concert of action jury instruction.
V.

Prosecutorial misconduct.
Statement of Facts

The Court finds that on September 25, 2011, the victim was living at the Mansards
Apartments in Virginia Beach. She arrived home at twelve o’clock that night and saw two men
walking down the sidewalk. As she walked to her apartment, one of the men was in front of her
and one was behind her. As she started to put her key in the door, she heard footsteps behind
her. One of the men told her to “stop” and when she looked to her left, he had a gun pointed at
her head. The victim identified the armed man as Ronaldo Goodman. Goodman asked her if
anyone was home, or if she had a dog or alarm system. The victim answered that she didn’t have

y\
W.rM

any of that. Goodman then directed her to

ro

inside and put down her belongings. While she

did this, Goodman was pointing the gun at her chest and Cannon was standing at the door
looking out of the door. When the victim tried to move the gun, Goodman pulled on her head,
;

■

made her walk around the couch and told her to get down on all fours. Goodman then took the
victim by her hair to the back bedroom. At this point. Cannon was still looking out the front
door. Once she was in the back bedroom, Goodman made the victim lay on her stomach and he
tried to tie her hands with a laptop cord. At that point, Cannon walked into the bedroom and
asked Goodman where the victim’s cash was. When she responded that she didn’t carry a
pocketbook, Cannon walked out and walked back in with brown electrical tape, which Goodman

3

then used to tie the victim’s hands. After tying her hands behind her back, Goodman put a sock
in the victim’s mouth, searched her pockets, and then took her pants down. Goodman then stuck
two fingers in the victim’s vagina, then took off his pants and put his penis in her vagina. While
Goodman raped her, the victim could hear Cannon going through the house opening drawers and
closets. The victim thought about trying to get away, but knew that if she did, Cannon was still

* _

on the other side of the house. While Goodman was raping the victim, Cannon opened the door, '

'

<A

laughed, and stated “Hurry up. I’m about to go get the car.” She then heard the door shut as
Cannon left. After Goodman ejaculated on the victim’s leg, he stood up, turned on her TV, went
through her closet and walked into the hall closet. When the victim heard the front door shut,
she got up, went to a neighbor’s house and called the police.
The victim testified that two class rings and a bracelet were missing from her apartment.
She also identified an Xbox, a Wii, some games for those game systems, a laptop, a phone, and
some tools as items that had been taken from her apartment. On cross-examination, the victim
testified that she kept electrical tape in her home and that it was in the living room under the TV
stand. She confirmed that she saw Cannon hand this tape to Goodman and that none of her
clothing had been removed at that point. The victim also stated that the next time Cannon came
in the room, her eyes were covered by her tank top, but she could barely see Cannon out of the
comer of her eye.

The victim also testified that after Cannon told Goodman to hurrv up.

Goodman stopped raping her and started going through her things.
In addition to the victim’s testimony, the Court finds that the Commonwealth also
presented testimony from Virginia Beach Master Police Officer Stephen Policella.

Officer

Policella testified that he executed a search warrant on Cannon’s home and recovered a roll of
brown electrical tape, as well as the Wii game system and the cell phone the victim identified as

4

%

having been taken from her apartment. Officer Policella also testified that he had interviewed
Gannon and that the interview had been recorded.

The Court finds that a portion of that

recording was played for the jury and the interview was admitted into evidence. Cannon told
Officer Policella that, while he and Goodman were on the way to Virginia Beach, Goodman
displayed a firearm. Cannon also admitted to selling the victim’s laptop to a pawnshop. Cannon
then wrote an apology letter that was also introduced into evidence.
Cannon’s Non-Cognizable Claims
The Court finds that claims I and V are not cognizable in habeas corpus because Cannon
could have raised them at trial or on appeal, but failed to do so. “A petition for a writ of habeas
corpus may not be employed as a substitute for an appeal or a writ of error.” Slayton v. Partisan,
215 Va. 27, 29, 205 S.E.2d 680, 682 (1974). So, claims that could have been raised at trial or on
direct appeal, but were not, and do not implicate the court’s subject matter jurisdiction cannot be
raised in habeas corpus. Id; accord Elliott v. Warden. 274 Va. 598, 601, 652 S.E.2d 465, 473
(2007); Strickier v, Murray. 249 Va. 120, 126, 452 S.E.2d 648, 651 (1995).
In claim I, Cannon alleges that the Court abused its discretion by using the wrong
standard in ruling on his motion to strike at the close of the Commonwealth’s evidence. The
Court finds that this argument was available to Cannon to be raised on appeal, but was not.
Thus, the Court holds that Cannon’s due process claim is procedurally defaulted because he
failed to raise it on appeal. Parrigan. 215 Va. at 29, 205 S.E.2d at 682. Additionally, the Court
finds that Cannon does not challenge the Court’s subject matter jurisdiction. See Virginia Code
§§ 19.2-239 and 17.1-513.
Further, the Court holds that claim I is without merit. The Court finds that, in ruling on
the motion to strike at the close of the Commonwealth’s evidence, the Court stated that it was

5

viewing the evidence in the light most favorable to the Commonwealth. It is well established
that, upon a motion to strike for insufficiency of the evidence, the trial court views the evidence
in the light most favorable to the party opposing the motion. See Morrisette v. Commonwealth.
264 Va. 386, 396, 569 S.E.2d 47, 54 (2002). Here, the opposing party was the Commonwealth.
Thus, the Court holds that the proper standard was used.
In addition, the Court finds that the evidence presented by the Commonwealth was
clearly sufficient to support the Court’s ruling. The Court finds that it is well-settled that a trial
court should grant a motion to strike “only when it is conclusively apparent that [the
Commonwealth] has proven no cause of action against defendant, or when it plainly appears that
the trial court would be compelled to set aside any verdict found for the [Commonwealth] as
being without evidence to support it.” Avent v. Commonwealth. 279 Va. 175, 198-99, 688
S.E.2d 244, 257 (2010).

Here, the Court of Appeals of Virginia expressly found that the

Commonwealth’s evidence was sufficient to support the rape, abduction, burglary, and
accompanying firearms convictions. In light of that finding, the Court holds that Cannon cannot
show that the Court’s ruling was erroneous. Accordingly, claim I is DISMISSED.
In claim V, Cannon alleges prosecutorial misconduct in presenting false testimony to the
Court. The Court finds that Cannon was aware of the alleged false statements when he filed for
appeal, but failed to raise these arguments. Therefore the claim is procedurally defaulted. See
Elliott, 274 Va. at 601, 652 S.E.2d at 473 (holding Brady and Napue violations are reviewable on
direct appeal).
Further, the Court holds that claim V is without merit. The Court finds that “to find that a
violation of Napue occurred, we must determine first that the testimony at issue was false, second
that the prosecution knew of the falsity, and finally that the falsity affected the jury’s judgment.”

6

Lawlor v. Warden, 288 Va. 223, 224, 764 S.E.2d 265, 270 (2014) (emphasis added) (citing
Teleguz v. Commonwealth, 273 Va. 458, 492, 643 S.E.2d 708, 729 (2007)). The Court finds
that, while Cannon identifies a number of statements made by the prosecution with which he
disagrees, Cannon fails to establish that any of these statements were testimony, that any of them
were false, or that any of them were knowingly false.
The Court finds that it is well established that the arguments of counsel are not evidence.
See, e.g„ Westry v. Commonwealth. 206 Va. 508, 515, 144 S.E.2d 427, 432 (1965). Thus, the
Court finds that counsel’s arguments cannot form the basis of a violation under Napue. Even so,
all of the statements Cannon complains of were supported by evidence on the record. The Court
finds that the statement that Cannon was at the Mansards apartments to rob people was supported
by his own statement as well as the evidence that he actually did steal things from the victim’s
apartment. The Court finds that the statements that Cannon took things from the victim, that he
was the lookout, and that he was the getaway, driver were supported by Cannon’s statements to
police, including that he was driving his girlfriend’s SUV on the night these crimes were
committed, and by the victim’s testimony. The Court finds that the statement that Cannon said
“hurry up” while the rape was in progress was supported by the victim’s testimony. The Court
finds that the statement that Cannon’s presence caused the victim not to try to escape was
supported by her testimony. The Court finds that the statement that Cannon was part of the
burglary and abduction was also supported by the victim’s testimony that he stood at the door
while Goodman held a gun on her and forced her into the apartment and the bedroom. Thus, the
Court finds that, even if Cannon could raise this claim, he has failed to establish any violation
under Napue. Therefore, claim V is DISMISSED.

7

In claim II, Cannon asserts that that the evidence was insufficient. The Court finds that this
claim was fully adjudicated in the Court of Appeals and Virginia Supreme Court on direct appeal,
and Cannon is bound those decisions. The Court holds that this claim, therefore, is not cognizable
on habeas review.

See Henry v. Warden. 265 Va. 246, 248, 576 S.E.2d 495, 496 (2003).

Accordingly, claim II is DISMISSED.
Cannon’s Ineffective Assistance Claims
Standard of Review
In order to prevail on his ineffective assistance of counsel claims, Cannon must meet the
highly demanding standard articulated in Strickland v. Washington. 466 U.S. 668 (1984).
Strickland requires the petitioner to show that his attorney’s performance was deficient and that
he was prejudiced as a result. See Strickland. 466 U'.S. at 687; accord Murray v, Griffith. 243
Va. 384, 388, 416 S.E.2d 219, 221 (1992). The petitioner also has the burden of proving his
claims of ineffective assistance by a preponderance of the evidence. Sigmon v. Dir, of the Dep’t
of Corr., 285 Va. 526, 535, 739 S.E.2d 905, 909 (2013). This is a “substantially heavier burden
. .. than on direct appeal.” Stokes v. Warden. Powhatan Correctional Center. 226 Va. Ill, 118,
306 S.E.2d 882, 885 (1983).
“The essence of an ineffective assistance claim is that counsel’s unprofessional errors so
upset the adversarial balance between defense and prosecution that the trial was rendered unfair
and the verdict rendered suspect.” Kimmelman v. Morrison. 477 U.S. 365, 374 (1986). In
evaluating such claims, “counsel is strongly presumed to have rendered adequate assistance and
made all significant decisions in the exercise of reasonable professional judgment.” Strickland.
466 U.S. at 690. Therefore, “[t]he question is whether an attorney’s representation amounted to
incompetence under ‘prevailing professional norms,’ not whether it deviated from best practices

8

or most common custom.” Harrington v. Richter. 562 U.S. 86, 105 (2011) (quoting Strickland.
466 U.S. at 690).
Strickland’s “performance” inquiry “requires showing that counsel made errors so serious
that counsel was not functioning as the ‘counsel’ guaranteed the defendant by the Sixth
Amendment.” Strickland. 466 U.S. at 687. A reviewing court “must be highly deferential in
scrutinizing [counsel’s] performance and must filter the distorting effects of hindsight from [its]
analysis.” Burket v. Angelone. 208 F.3d 172, 189 (4th Cir. 2000). See also Baker v. Corcoran.
220 F.3d 276, 293 (4th Cir. 2000) (competency of counsel is “measured against what an
objectively reasonable attorney would have done under the circumstances”).

“The Sixth

Amendment’s guarantee of assistance of counsel requires that counsel exercise such care and skill
as a reasonably competent attorney would exercise for similar services under the circumstances.”
Frye v. Commonwealth. 231 Va. 370, 400, 345 S.E.2d 267, 287 (1986). See Poyner v. Murray. 964 '
F.2d 1404, 1423 (4th Cir. 1992) (law requires not perfect performance, “but only professionally
reasonable performance of counsel”).
In addition, Strickland’s “prejudice” inquiry requires showing that there is a “reasonable
probability that, but for counsel’s unprofessional errors, the result of the proceeding would have
been different.” Strickland. 466 U.S. at 694. A reasonable probability is a probability sufficient
to undermine confidence in the outcome.” Id “That requires a substantial, not just conceivable,
likelihood of a different result.”

Cullen v. Pinholster. 563 U.S. 170, 189 (2011) (internal

quotation marks omitted).
An ineffective assistance of counsel claim may be disposed of on either prong of the
Strickland test because deficient performance and prejudice are “separate and distinct elements.”
Spencer v. Murray, 18 F.3d 229, 232-33 (4th Cir. 1994); see also Strickland. 466 U.S. at 697.

9

And conclusory allegations of ineffective assistance of counsel do not merit habeas relief.
Fitzgerald v. Bass, 6 Va. App. 38, 44, 366 S.E.2d 615, 618 (1988) (“mere conclusions or opinions
of the pleader” are not sufficient to state a claim for relief in habeas corpus) (quoting Penn v. Smyth.
188 Va. 367, 370-71, 49 S.E.2d 600, 601 (1948)); cf Nickerson v. Lee. 971 F.2d 1125, 1135 (4th
Cir. 1992) (a “bare allegation” of constitutional error not sufficient for relief). Thus, the habeas
corpus petition must contain all of the allegations of fact upon which the petitioner relies in
support of his habeas corpus claim. Virginia Code § 8.01-654(B)(2). Applying these standards,
the Court finds that Cannon is not entitled to relief.
Analysis
In claim 111(a), Cannon alleges that his trial counsel was ineffective for failing to object to
the Commonwealth’s statements that Cannon intended to “rob people.” The Court finds that this
claim is without merit.
The Court finds that Cannon has failed to establish that this argument was false. Cannon
admitted to police that he and Goodman went to the Mansards apartments to steal from people’s
cars. Further, Cannon admitted that, once they were in the victim’s apartment, his mindset was
“whatever I can get, I can get.” Cannon also admits in his pleading that he stole valuables from
the victim’s apartment.

The Court finds that, given Cannon’s admissions, he has failed to

establish any good faith basis upon which his counsel could have objected to the
Commonwealth’s statements.

Counsel is not ineffective for failing to make a frivolous

objection. See Correll v. Commonwealth. 232 Va. 454, 469-70, 352 S.E.2d 352, 361 (1987)
(holding counsel had no duty to object to admission of presentence report because it was
admissible); cf Sharpe v. Bell. 593 F.3d 372, 383 (4th Cir. 2010) (‘“Counsel is not required to
engage in the filing of futile motions.’”) (quoting Moody v. Polk. 408 F.3d 141, 151 (4th Cir.

10

2005)).

Therefore, the Court holds that Cannon has failed to establish that his counsel’s

performance was deficient under Strickland.
In addition, the Court finds that Cannon has failed to demonstrate how such a frivolous
objection would have changed the outcome of his case.

Cannon has neither alleged nor

demonstrated that such an objection would have been successful. Further, the Court finds that,
given Cannon’s admitted involvement in the robbery, his knowledge that Goodman was armed,
his watching at the door while Goodman threatened the victim with a gun and forced her inside
the apartment, his active participation in burglarizing her apartment, and the evidence that
Cannon gave Goodman tape to bind the victim’s hands and urged him to “hurry up” as he raped
her, Cannon has not established a reasonable probability that, but for his counsel’s alleged errors,
the result of the proceeding would have been different. See Teleguz v. Commonwealth. 279 Va.
1, 12-13, 688 S.E.2d 865, 875 (2010). As a result, the Court holds that Cannon has failed to
satisfy either prong under Strickland. Accordingly, claim 111(a) is DISMISSED.
In claim 111(b), Cannon alleges that counsel was ineffective for failing to object to the
Court’s use of the wrong standard of review at his motion to strike. The Court finds that this
claim is without merit.
The Court finds that, at the motion to strike at the close of the Commonwealth’s
evidence, Cannon’s counsel argued that Cannon was only present to take things from cars and
that the rape and abduction were not a natural and probable consequence of that original intent to
steal from cars. Cannon’s counsel also noted Cannon’s statement that he was shocked by what
he saw Goodman doing and left the apartment after he saw it. Cannon’s counsel moved to strike
the armed burglary and firearms charges based upon Cannon’s statement that he entered the
apartment after Goodman and the victim were already there. She further argued that, since the

11

tape was given to Goodman before he started raping the victim, that act was not done in
furtherance of the rape. In denying the motion to strike, the Court noted that Cannon was
standing there when Goodman pulled a gun on the victim, that they went to the apartments with
the intention to steal things, that Cannon stood at the door while everything was going on in the
living room, and that he brought Goodman the tape in the bedroom. In addition, the Court noted
that the determination of “whether the offense was a natural and probable result of the intended
wrongful act is usually for the jury.” The Court finds that the appropriate standard was used in
ruling on Cannon’s motion to strike at the close of both the Commonwealth’s evidence and at the
close of all evidence.

Rule 3A:15.

Thus, the Court holds that Cannon’s counsel was not

ineffective for failing to make a frivolous objection. See Correll. 232 Va. at 469-70, 352 S.E.2d
at 361.
Further, the Court finds that Cannon has not established that he was prejudiced by his
counsel’s failure to object.

The Court finds that Cannon has failed to allege, much less

demonstrate, that such an objection would have been successful. Additionally, Cannon only
argues that such an objection would have alerted the Court to the error and preserved it for
appeal. Thus, the Court finds that Cannon has failed to allege and demonstrate that the outcome
of the trial would have been any different but for his counsel’s alleged error. See Sigmon. 285
Va. at 536, 739 S.E.2d at 910 (holding ineffective assistance of counsel claims were “facially
lacking” under the “prejudice” prong of the two-part test in Strickland, for “failing] even to
assert, much less demonstrate, that but for counsel’s alleged errors, the result of his trial would
have been different”). Indeed, the Court finds that subsequent review by the Virginia Court of
Appeals and the Virginia Supreme Court squarely forecloses this argument.

The Court of

Appeals expressly found the evidence sufficient to support the Court’s judgment, thus defeating

12

any argument that application of a different standard would have yielded a different result. Thus,
the court holds that Cannon has failed to satisfy either prong of the Strickland test. Accordingly,
Claim 111(b) is DISMISSED.
In claim III(c), Cannon alleges that his counsel was ineffective for failing assert the
actual facts and circumstances of the case to the jury. The Court finds that this claim is without
merit.
Selecting which arguments to advance and which to ignore is a tactical choice reserved
for counsel and is not subject to second-guessing on collateral review. See Gonzalez v. United
States, 553 U.S. 242, 249 (2008) (“Numerous choices affecting conduct of the trial, including the
objections to make, the witnesses to call, and the arguments to advance, depend not only upon what
is permissible under the rules of evidence and procedure but also upon tactical considerations of the
moment and the larger strategic plan for trial.”); Strickland. 466 U.S. at 689, 699 (stating that “[a]
fair assessment of attorney performance requires that every effort be made to eliminate the
distorting effects of hindsight” and holding that counsel made a reasonable strategic decision at
sentencing to raise certain arguments to the exclusion of others). Here, the Court finds that what
Cannon characterizes as the “material and exculpatory facts” were in evidence for the jury to
consider. Furthermore, the Court finds that Cannon’s counsel pursued a reasonable defense in
attempting to convince the jury that even though Cannon embarked with Goodman on a scheme
to steal from cars, the decision to abduct and rape the victim was entirely Goodman’s and
Cannon did nothing to aid and abet that separate scheme.

The fact that his defense was

unsuccessful does not demonstrate that counsel’s performance was deficient. See Richter. 562
U.S. at 109-10; Lawrence v. Branker. 517 F.3d 700, 716 (4th Cir. 2008); Wright v. Aneelone.
151 F.3d 151, 161 (4th Cir. 1998).

13

The Court finds that, at closing, Cannon’s counsel emphasized that: 1) Cannon was only
there to rob cars; 2) there were no fingerprints or other evidence establishing that the tape found
in Cannon’s apartment was the same tape used to bind the victim; 3) Cannon was not in the room
when Goodman raped the victim; and 4) Cannon was shocked and horrified by Goodman’s
actions. Thus, the Court finds that, of the five “facts” that Cannon now complains his counsel
failed to raise, she actually presented four of them for the jury’s consideration. With respect to
the fifth “fact,” that Cannon was not even in the apartment when the victim was raped, the Court
finds that the record does not support his claim. To the contrary, Cannon’s statement to police
established that he “knew what [Goodman] was doin[g]” and that he “[saw] him having sex with
her.” Further, Cannon’s apology note indicates that he “should [have] been a bigger man and
stop what was going on.” In addition, the Court finds that the victim’s testimony that Cannon
entered the room while she was being raped further contradicts this claim,

Thus, the Court

finds that Cannon has failed to establish that his counsel’s performance was deficient under
Strickland.
The Court further finds that Cannon also has failed to allege and demonstrate that the jury
would have reached a different verdict had his attorney emphasized the arguments he suggests.
See Sigmon, 285 Va. at 536, 739 S.E.2d at 910. Indeed, the Court finds that Cannon’s counsel
did argue that the Commonwealth had failed to establish that Cannon was a principal in the
second degree or that there was a concert of action with respect to the rape and abduction.
Further, the jury had the opportunity to hear Cannon’s version of events through his recorded
interview with police. Considering all the evidence, the jury convicted Cannon of these crimes.
The Court holds that the fact that Cannon’s counsel did not make the argument or present the
evidence the same way Cannon or another attorney would have does not demonstrate ineffective

14

assistance, nor does it establish that, but for counsel’s alleged errors, the jury would have reached
a different verdict. See Teleeuz. 279 Va. at 6, 688 S.E.2d at 871; Strickland. 466 U.S. at 694.
As a result, the Court holds that Cannon has failed to satisfy either prong of Strickland.
Accordingly, claim III(c) is DISMISSED.
In claim 111(d), Cannon alleges that his counsel was ineffective for failing to file a
“correction of facts” with his petition for appeal. The Court finds that this claim is without
merit.
The Court finds that Cannon has failed to establish that his counsel’s actions were
deficient. While Cannon complains that his counsel failed to file a “correction of facts” pursuant
to Supreme Court Rule 5A:8, the Court finds that the section to which he refers addresses a
written statement in lieu of transcripts. Since the transcripts of this case were submitted to the
Court of Appeals in accordance with Rule 5A:8(b), the Court finds that there was no need for
Cannon’s counsel to submit a written statement. Further, the Court finds that Cannon has failed
to identify with specificity any errors that existed in the transcripts that required correction
pursuant to Rule 5A:8(d). The Court holds that habeas corpus relief is not warranted where the
petitioner fails to “articulate a factual basis to support [his] claim.” Muhammad v. Warden. 274
Va. 3, 17, 646 S.E.2d 182, 194 (2007); cfi Mallory v. Smith. 27 F.3d 991, 995 (4th Cir. 1994)
(stating that, in order to properly exhaust specific claims in state court, a petitioner must do. more
than make “[ojblique references which hint that a theory may be lurking in the woodwork”).
Thus, the Court holds that Cannon’s mere conclusion that his counsel’s performance was
constitutionally unreasonable is insufficient to merit relief.
Additionally, the Court finds that Cannon has failed to establish that he was prejudiced
by his counsel’s alleged failure to correct the record. The Court finds that Cannon neither

15

alleges, nor demonstrates, that the outcome of the case would have been different had his counsel
filed an objection to the record on appeal. See Sigmon, 285 Va. at 536, 739 S.E.2d at 910. In
the context of an appeal, the Court further finds that Cannon has failed to demonstrate how such
an objection would have changed the rulings of either the Court of Appeals or the Supreme
Court. Indeed, Cannon makes the same argument here that he presented on appeal: that he was
not an active participant in the burglary, abduction or rape of the victim. However, the Court of
Appeals held that Cannon “aided Goodman in accomplishing the burglary and abduction” by
standing guard at the door, and that “[t]he evidence fully supported] the jury’s conclusion that
[Cannon] aided and abetted and was guilty of the offenses as a principal in the second degree.”
The Court finds that Cannon’s conclusory argument fails to establish how the evidence at trial
failed to support the jury’s verdicts. Thus, the Court holds that Cannon has failed to establish a
violation of either prong of Strickland. Accordingly, claim 111(d) is DISMISSED.
In claim 111(e), Cannon alleges that his counsel was ineffective for failing to establish,
during the motion to set aside the verdict, that the Commonwealth’s case was based upon
misrepresentation of material facts. The Court finds that this claim is without merit.
The Court finds that Cannon has failed to establish that his counsel’s performance was
deficient under Strickland. The Court finds that, at the motion to set aside the verdict, Cannon’s
counsel argued that the evidence was insufficient to establish that the rape and abduction were
natural probable consequences of Cannon’s participation in a robbery. Counsel also argued that
Cannon’s presence when Goodman raped the victim was insufficient for him to be convicted as a
principal in the second degree. The Court finds that, while Cannon asserts in conclusory fashion
that his counsel should have presented the “real facts” to the Court, he has failed to proffer what
alternative arguments his counsel should have made, or provide any evidence to contradict the

16

facts established at the trial, including his voluntary statements to the police. The Court finds
that this failure to proffer is fatal to his claim. Muhammad. 274 Va. at 17, 646 S.E.2d at 194.
To the extent that Cannon relies upon his summary of facts to support this claim, the
Court finds that his allegations are unsupported by the evidence.
Cannon alleges that the Commonwealth misrepresented the fact that he had come to the
Mansards apartments to rob people; however, the Court finds that Cannon himself admitted that
his intent was to break into people’s cars and steal their personal'property. Further, the Court
finds that he concedes that he entered the victim’s apartment and took property from the
apartment after he saw Goodman threaten the victim with a gun. Thus, the Court holds that
Cannon has failed to establish that the Commonwealth misstated the evidence or misled the
court. See Juniper v. Warden. 281 Va. 277, 299, 707 S.E.2d 290, 309 (2011).
Cannon alleges that the Commonwealth misrepresented him as the “get-away driver,”
however the Court finds that his proffered evidence establishes that he drove his girlfriend’s
SUV on the night of these offenses, and that he drove Goodman to Portsmouth after they left the
victim’s apartment.

Thus, the Court holds that Cannon has failed to establish that the

Commonwealth misstated the evidence or misled the court. See Juniper. 281 Va. at 299, 707
S.E.2d at 309.
Cannon alleges that the Commonwealth misrepresented the fact that he and Goodman
were side-by-side when Goodman pulled the gun and commenced the burglary and abductioh.
However, the Court finds that Cannon admits that he saw Goodman present the gun and none of
the victim’s testimony contradicted that statement. Thus, the Court holds that Cannon has failed
to establish that the Commonwealth misstated the evidence or misled the court. See Juniper, 281
Va. at 299, 707 S.E.2d at 309.

17

Cannon alleges that the Commonwealth misrepresented the fact that he handed Goodman
the tape that was used to bind the victim. But, the Court finds that the victim testified to that fact
at trial.

Thus, the Court holds that Cannon has failed to establish that the Commonwealth

misstated the evidence or misled the court. See Juniper. 281 Va. at 299, 707 S.E.2d at 309.
Cannon alleges that the Commonwealth misrepresented the fact that his presence in the
apartment during the rape was an act in furtherance of the crime. The Court finds that that
argument, however, did notrassert a fact but a conclusion of law that the Commonwealth asked
the jury to find from the evidence presented. Counsel is entitled “to argue as to conclusions
which they thought the jury might draw from the evidence.” Westrv. 206 Va. at 515, 144 S.E.2d
at 432. Indeed, the Court of Appeals agreed that Cannon’s presence in the room during the rape,
as well as his providing the tape to bind the victim and exhorting Goodman to “hurry up,” were
acts that assisted Goodman in the commission of the crimes. Thus, the Court holds that Cannon
has failed to establish that the Commonwealth misstated the evidence or misled the court. See
Juniper. 281 Va. at 299, 707 S.E.2d at 309.
Cannon alleges that the Commonwealth misrepresented the fact that he said “hurry up”
while the rape was ongoing. The Court finds that the victim testified that, while Goodman was
raping her, Cannon walked into the room, laughed, and said “hurry up.” Thus, the Court holds
that Cannon has failed to establish that the Commonwealth misstated the evidence or misled the
court. See Juniper. 281 Va. at 299, 707 S.E.2d at 309.
Finally, Cannon alleges that the Commonwealth misrepresented the fact that his telling
Goodman to “hurry up” was an act in furtherance of the crime. Again, the Court finds that this
was not a statement of fact, but a conclusion of law for the jury’s determination. Further, the
Court of Appeals agreed that the jury was entitled to conclude that Cannon’s suggestion that

18

Goodman “hurry” was an act that assisted Goodman in completing the rape. Thus, the Court
holds that Cannon has failed to establish that the Commonwealth misstated the evidence or
misled the court. See Juniper. 281 Va. at 299, 707 S.E.2d at 309.
As a result, the Court finds that Cannon has failed to identify any misrepresentations that
his counsel could have corrected. To the extent that Cannon’s theory of the case differed from
the Commonwealth’s theory, the Court finds that that argument was thoroughly presented to the
Court and the jury. The fact that the jury did not believe Cannon’s self-serving version of
events, or that it chose to believe the victim’s account instead of his, does not establish that his
counsel’s efforts were deficient.

Thus, the Court holds that Cannon has failed to satisfy .

Strickland’s performance prong.
Further, the Court finds that Cannon has failed to establish that he was prejudiced by his
counsel’s actions. The Court finds that Cannon cannot demonstrate that the outcome of the
motion to set aside the verdict would have been different had his counsel asserted the “real
facts.” The Court finds that Cannon’s opinion and bare assertion that the Court would have ruled
differently had his counsel made some other unidentified argument is insufficient to merit relief.
Elliott. 274 Va. at 613, 652 S.E.2d at 480. As established above, the facts of the case and theory
of defense were well developed at trial. The Court finds that the appropriate standard of review
was applied to the motion to set aside the verdict and that the jury’s verdict was not plainly
wrong or without evidence to support it. Thus, the Court holds that Cannon’s claim fails to
establish a violation of either prong of Strickland. Therefore, claim 111(e) is DISMISSED.
In claim 111(f), Cannon argues that thecumuktiveeffectcrf his counsel’s deficiencies
resulted in an unfair trial and entitles him to relief. The Court finds that Virginia law does not
recognize such a claim. “Having rejected each of petitioner’s individual claims, there is no

19

support for the proposition that such actions when considered collectively have deprived
petitioner of his constitutional right to effective assistance of counsel.” Lenz v. Warden of the
Sussex I State Prison, 267 Va. 318, 340, 593 S.E.2d 292, 305 (2004).

See also Fisher v.

Angelone, 163 F.3d 835, 852 (4th Cir. 1998) (“Having just determined that none of counsel’s
actions could be considered constitutional error.... it would be odd, to say the least, to conclude
that those same actions, when considered collectively, deprived Fisher of a fair trial.”); Mueller
v. Angelone, .181 F.3d 557v 586 n.22 (4th Cir. 1999) (applying Fisher and concluding that the
“cumulative effect” argument was “squarely foreclosed” by that decision). Therefore, because
1 claim 111(f) does not set forth a cognizable basis for habeas corpus relief, it is DISMISSED.
In claim IV(a), Cannon alleges that his appellate counsel was ineffective for failing to
assert on appeal that the facts were in dispute. The Court finds that this claim is without merit.
The Court finds that, on appeal, Cannon’s counsel argued that “the evidence [was]
insufficient to support his convictions for abduction, burglary, rape, and three of the four counts
of use of a firearm during the commission of a felony.” Thus, Cannon’s argument on appeal was
not over what facts were presented at trial, but whether those facts were sufficient to support the
jury’s findings of guilt. The Court finds that it is well-established that selecting issues for appeal
is a matter of strategy, and counsel need not raise every possible issue. See, e.g.. Jones v.
Barnes, 463 U.S. 745 (1983). As the Supreme Court has noted, “The effect of adding weak
arguments [on appeal] will be to dilute the force of the stronger ones.” Jones. 463 U.S. at 752.
Moreover, it is well-established in Virginia law that when reviewing a challenge to the
sufficiency of the evidence, the appellate court reviews the evidence in the light most favorable
to the party that prevailed at trial; here, the Commonwealth.

See. e.g„ Vasquez v.

Commonwealth. 291 Va. 232, 247, 781 S.E.2d 920, 929 (2016). The Court credits counsel’s

20

averment that she selected the arguments that she felt “were supported by the trial evidence and
the law.” The Court holds that Cannon has therefore failed to establish that his counsel’s actions
were deficient for failing to state that the facts were in dispute.
Further, the Court finds that Cannon has failed to establish that he was prejudiced by his
counsel’s actions. Cannon alleges that had his counsel asserted that the facts were in dispute, the
Court of Appeals would have recognized that an evidentiary hearing was necessary. The Court
finds that this assertion is wrong because Cannon is not entitled- to an evidentiary hearing on
appeal. To the contrary, the Court of Appeals and the parties are bound by the record. Further,
the Court finds that the Court of Appeals had access to the entire record of trial, including
transcripts.

Indeed, the Court of Appeals noted that “[t]he Commonwealth’s evidence was

competent, was not inherently incredible, and was sufficient to prove beyond a reasonable doubt
that [Cannon] was guilty of abduction, burglary, rape and three counts of use of a firearm during
the commission of a felony.” Thus, the Court holds that Cannon has failed to allege or establish
that any further recitation of the facts on appeal would have changed the outcome of his case.
See Sigmon. 285 Va. at 536, 739 S.E.2d at 910. As a result, the Court holds that Cannon has
failed to establish that he was prejudiced under Strickland.

Accordingly, claim IV(a) is

DISMISSED.
In claim IV(b), Cannon alleges that his counsel was ineffective for failing to object to
what he characterizes as “the misrepresentations and falsification of facts” in the
Commonwealth’s brief in opposition to his petition for appeal. The Court finds that this claim is
without merit.
The Court finds that Cannon has failed to identify any rule of Court that would permit his
counsel to object to the Commonwealth’s statement of facts in its brief in opposition. Further,

21

the Court finds that he has failed to allege, much less demonstrate, that any such objection would
have been successful.

As previously detailed, the trial record amply supported the

Commonwealth’s statements of fact and arguments.

Thus, the Court holds that Cannon’s

counsel was not ineffective for failing to make a frivolous objection. See Correll. 232 Va. at
469-70, 352 S.E.2d at 361.
Additionally, the Court finds that Cannon fully presented the facts and his arguments to
the Court of Appeals in his petition for appeal. The Court of Appeals then reviewed the entire
record and found the evidence sufficient to support his convictions. Thus, the Court finds that
Cannon’s opinion and conclusory allegations of deficient performance are therefore inadequate
to merit relief. Elliott, 274 Va. at 613, 652 S.E.2d at 480.
Furthermore, the Court finds that Cannon’s argument that his appeal would have been
granted had his counsel objected to the Commonwealth’s recitation of facts is conclusory and
unsupported by any facts. Fitzgerald. 6 Va. App. at 44, 366 S.E.2d at 618. What is more, the
Court finds that Cannon has failed to establish that any objection to the Commonwealth’s
statement of facts would have changed the outcome of his appeal. See Sipmnn 285 Va. at 536,
739 S.E.2d at 910. Indeed, the governing standard of review not only required the appellate
courts to view the evidence in the light most favorable to the Commonwealth, but also to
“discard” Cannon’s conflicting evidence. Vasauez, 291 Va. at 247, 781 S.E.2d at 929. Thus, the
Court holds that Cannon has failed to satisfy either prong of Strickland. Accordingly, claim
IV(b) is DISMISSED.
In claim IV(c), Cannon alleges that his counsel was ineffective for failing to assert that it
was his right to have the evidence heard in his favor on appeal. The Court finds that this claim is
without merit.

22

The Court finds that it is well-settled that, on appeal, the sufficiency of the evidence is
viewed in the light most favorable to the prevailing party in the trial court. Vasquez. 291 Va.
232, 247, 781 S.E.2d 920, 929. Here that party was the Commonwealth. Thus, since any
argument that Cannon was entitled to a different standard of review would have been frivolous,
the Court finds that his counsel had no duty to advance such an argument. Correll. 232 Va. at
469-70, 352 S.E.2d at 361. Further, the Court finds that Cannon’s claim that his proffered jury
instructions were denied is not supported by the record.

While the transcript reveals that

Cannon’s counsel objected to several of the Commonwealth’s instructions, the Court finds that it
does not reveal that any of Cannon’s proposed instructions were refused. Thus, the Court finds
that there is no factual basis for his claim. Muhammad. 274 Va. at 17, 646 S.E.2d at 194. As a
result, the Court holds that Cannon has failed to establish any deficient performance by counsel.
Further, the Court finds that Cannon has failed to prove any prejudice as a result of his
counsel’s actions. Based upon the well-settled standard of review, the Court finds that Cannon
was not entitled to a different standard of review and that such an argument would not have been
successful. Thus, the Court finds that there was no reasonable probability of a different outcome
on Cannon’s petition for appeal even if his counsel had made this frivolous argument.
Strickland. 466 U.S. at 694. The Court finds that Cannon’s mere opinion that he would have
been exonerated had his counsel asserted a different standard of review is therefore inadequate.
Elliott. 274 Va. at 613, 652 S.E.2d at 480. Thus, the Court holds that Cannon has failed to
demonstrate that his counsel violated either prong of Strickland. Accordingly, claim IV(c) is
DISMISSED.

i

23

In claim IV(d), Cannon alleges that his counsel was ineffective for failing to raise on
appeal the argument that the conceit of action jury instruction was unsupported by the facts. The
Court finds that this claim is without merit.
The Court holds that selecting issues for appeal is a matter of strategy, and counsel need
not raise every possible issue.

See, e.g.. Jones. 463 U.S. at 751. Indeed, “the process of

‘winnowing out weaker claims on appeal and focusing on’ those more likely to prevail, far from
being evidence of incompetence, is the hallmark of effective appellate advocacy.” Burger v.
Kemp, 483 U.S. at 784 (other citations omitted). In applying the Strickland test to claims of
ineffective assistance of counsel on appeal, reviewing courts must accord appellate counsel the
“presumption that he decided which issues were most likely to afford relief on appeal.” Pruett v.
Thompson. 996 F.2d 1560, 1568 (4th Cir. 1993); accord Bell v. Jarvis. 236 F.3d 149, 164 (4th
Cir. 2000).
Here, the Court finds that counsel selected the arguments she felt were supported by the
law and the evidence. Further, the Court finds that Cannon has failed to.establish that the
argument he proposes would have been successful. The Court finds that it is well-established
that an individual may be convicted of a crime as a principle in the second degree where there is
concert of action. See McMorris v. Commonwealth. 276 Va. 500, 505-06, 666 S.E.2d 348, 351
(2008). In defining concert of action, the Virginia Supreme Court has stated:
All those who assemble themselves together with an intent to
commit a wrongful act, the execution whereof makes probable, in
the nature of things, a crime not specifically designed, but
incidental to that which was the object of the confederacy, are
responsible for such incidental crime. . .. Hence, it is not necessary
that the crime should be a part of the original design; it is enough if
it be one of the incidental probable consequences of the execution
of that design, and should appear at the moment to one of the
participants to be expedient for the common purpose.

24

M ^

fv° V

/V*

Thomas, 279 Va. at 157, 688 S.E.2d a 234 (quoting Brown v. Commonwealth. 130 Va. 733, 738,,
107 S.E. 809, 811 (1921)). Further, the Virginia Supreme Court has noted that “it is well settled
in.Virginia that each co-actor is responsible for the acts of the others, and may not interpose his
.personal lack of intent as a defense.” Carter v. Commonwealth. 232 Va. 122, 126, 348 S.E.2d
265, 267-68 (1986). Thus, the Court finds that, although Cannon’s counsel objected to the
instruction at trial, the jury instruction was supported by precedent and the evidence at trial.
Additionally, the Court finds that the VirgijUjLjilLBreme Court has previously examined this
instruction and found that it “did not establish an improper presumption but merely stated a
permissive inference.”

Thomas, 279 Va. at 166, 688 S.E.2d at 239 (quoting Schmitt v.

Commonwealth, 262 Va. 127, 145, 547 S.E.2d 186, 198-99 (2001)). Therefore, the Court finds
that Cannon has failed to establish that his counsel’s decision not to raise this argument on
appeal was deficient. Further, given this established precedent, the Court finds that Cannon
cannot establish that, but for his counsel’s failure to present this frivolous argument on appeal,
the outcome of that proceeding would have been different. Therefore, the Court holds that
Cannon has failed to demonstrate that his counsel violated either prong of Strickland.
Accordingly, claim IV(d) is DISMISSED.
The Court holds that Cannon’s allegations can be disposed of on the basis of recorded
matters, and no plenary hearing is necessary. Code § 8.01-654(B)(4); Yeatts v. Murray. 249 Va.
285, 455 S.E.2d 18 (1995); Arev v. Pevton. 209 Va. 370,164 S.E.2d 691 (1968).
Accordingly, the Court holds that the petitioner is not entitled to the relief sought. It is,
therefore, ORDERED that the petition for a writ of habeas corpus be, and hereby is, DENIED
and DISMISSED WITH PREJUDICE.

25

It is further ORDERED that petitioner’s endorsement of this order is dispensed with in
accordance with Rule 1:13 of the Supreme Court of Virginia.
It is further ORDERED that the Clerk serve by mail a certified copy of this Order to the
petitioner and to J. Christian Obenshain, Assistant Attorney General, counsel for respondent.
This order is FINAL.
ENTERED this

day of

, 2017.

Judge

I ask for this:

y. CHRISTIAN OBENSHAIN
'Assistant Attorney General
Virginia State Bar No. 75265

OFFICE OF THE ATTORNEY GENERAL
202 North Ninth Street
Richmond, Virginia 23219
(804) 786-2071 (phone)
(804) 371-0151 (fax)
jobenshain@oag.state.va.us

26

/x D

Additional material
from this filing is
available in the
Clerk's Office.

